<html>
<title> - FY 2003 BUDGET AND PROGRAMS OF THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION</title>
<body><pre>[Senate Hearing 107-1122]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1122

                  FY 2003 BUDGET AND PROGRAMS OF THE 
                   NATIONAL OCEANIC AND ATMOSPHERIC 
                             ADMINISTRATION

=======================================================================

                                HEARING

                               BEFORE the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 1, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
93-349                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held May 1, 2002.........................................     1
Statement of Senator Wyden.......................................     1
Statement of Senator Snowe.......................................    20
    Prepared statement...........................................    23

                               Witnesses

Lautenbacher, Jr., Vice Admiral Conrad C., (Retired), USN, NOAA 
  Administrator and Under Secretary of Commerce for Oceans and 
  Atmosphere, Department of Commerce.............................     2
    Prepared statement...........................................     4

                                Appendix

Memorandum for William T. Hogarth, Ph.D., Assistant Administrator 
  for Fisheries, from D. Robert Lohn, Regional Administrator, 
  National Marine Fisheries Service, dated:
    March 22, 2002...............................................    37
    April 1, 2002................................................    43
Response to written questions submitted by Hon. Ron Wyden to Vice 
  Admiral Conrad C. Lautenbacher.................................    37
Written questions submitted to Vice Admiral Conrad C. 
  Lautenbacher, Jr., by:
    Hon. Max Cleland.............................................    48
    Hon. Ernest F. Hollings......................................    44
    Hon. Daniel K. Inouye........................................    48
    Hon. John F. Kerry...........................................    46
    Hon. John McCain.............................................    49
    Hon. Olympia J. Snowe........................................    51

 
                  FY 2003 BUDGET AND PROGRAMS OF THE 
                   NATIONAL OCEANIC AND ATMOSPHERIC 
                             ADMINISTRATION

                              ----------                              


                         WEDNESDAY, MAY 1, 2002

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:50 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Ron Wyden 
presiding.

             OPENING STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. The Committee on Commerce, Science, and 
Transportation will come to order. Today's hearing will address 
the President's fiscal year 2003 budget and programs for the 
National Oceanic and Atmospheric Administration.
    First, Admiral Lautenbacher, welcome. We appreciate your 
coming this morning. NOAA, a key component of the Department of 
Commerce, plays an important role in the everyday lives of our 
citizens, with numerous contributions to the country's economic 
and environmental health.
    It is vital that the Senate continue to fund the important 
programs Congress has authorized, as well as to find new ways 
to support the Nation's economic and environmental needs. This 
Committee has consistently been supportive of NOAA's mission, 
but certainly there are a number of concerns that the Committee 
has with respect to the President's fiscal year 2003 budget 
proposal for the agency.
    As Vice Admiral Lautenbacher knows, in January 2000 the 
Secretary of Commerce declared the West Coast groundfish 
fishery a disaster. There is local support from fishers and 
environmentalists to get the right number of fishers out there 
at the right time catching the right number of fish to make 
this industry sustainable.
    As you know, Vice Admiral Lautenbacher, during your 
confirmation hearing last November I introduced legislation to 
authorize a buy-back program which would decrease the number of 
fishers and boats in the West Coast groundfish industry. I can 
find nothing in the budget to support a significant reduction 
of fishing capacity in the West Coast groundfish industry, so 
please know that the very first question you will get is why is 
that the case?
    Another concern is with the proliferation of lawsuits 
against the National Marine Fisheries Service. What does this 
say about NMFS fisheries management, and how do they intend to 
handle these costs? In addition, how are these lawsuits 
affecting how NMFS is making decisions? The reason the NMFS 
whiting decision gives me cause for concern is that NMFS is 
allowing the possibility of lawsuits against it to influence 
its decisions. This, in my view, is not a sound management 
strategy.
    Another concern is the dramatic proposal to terminate the 
national sea grant college program within NOAA. This raises 
concerns not just for the people of Oregon but certainly many 
of my colleagues with sea grant programs.
    Vice Admiral Lautenbacher, you are welcome here. While it 
is a biological imperative that you read your statement in its 
entirety, please know that we are going to place the whole 
thing in the record, and somehow if you could be enticed into 
summarizing your principal remarks, that would be very helpful.

    STATEMENT OF VICE ADMIRAL CONRAD C. LAUTENBACHER, JR., 
         (RETIRED), USN, NOAA ADMINISTRATOR AND UNDER 
             SECRETARY OF COMMERCE FOR OCEANS AND 
               ATMOSPHERE, DEPARTMENT OF COMMERCE

    Admiral Lautenbacher. Thank you very much, Mr. Chairman. It 
is a great pleasure to be here. I appreciate the opportunity to 
come before you and to talk about our program and some of the 
priorities that I think are very important for our Nation. I am 
indeed grateful for your support and the support of this 
Committee and all of the staff members that are here today. 
Without their support, obviously, NOAA would not be as 
prominent in solving some of these problems as they are, and so 
again I appreciate this opportunity, and I will submit my 
statement for the record if agreed to and will just summarize 
it.
    Senator Wyden. Without objection, that will be, with 
pleasure, so ordered.
    Admiral Lautenbacher. Yes, sir. If I could take just 2 
minutes to talk about some of the important priorities in our 
budget I would be grateful for the time. This is a tight budget 
this year. It is roughly the same as last year's budget. It is 
a $3.3 billion budget. Given the priorities, the national 
priorities that happened after 9/11 and the changes that took 
place in this country, I think this is a good budget. It 
indicates that there is strong support with the administration 
for keeping the level of services and products that NOAA 
provides the Nation at the right level. It is a tight budget, 
though, and we ask for your support in maintaining these 
critical programs.
    The NOAA budget support programs which are essentially, I 
would call the heart and soul of a lot of our economic 
foundation. There is not an individual in here that does not 
check the weather report before they go out in the morning. 
Many of our industries are totally dependent upon the types of 
products that the National Oceanic and Atmospheric 
Administration produces in the energy area, agriculture, 
fishing you mentioned, tourism, construction, the list goes on.
    Approximately one-third of our gross domestic product is 
based upon decisions that are made because of data and products 
that are delivered from NOAA, all the way from weather to 
management and development of our coastal zones to management 
of endangered species and fisheries, as we have mentioned, and 
so I believe this is a very important and critical part of our 
budget and needs to be supported.
    Within that $3.3 billion there was essentially about $300 
million worth of alignments, realignments, $148 million of 
that, what I would call program increases, and that is what I 
would call a very modest small number, and I would like to ask 
for your support for those, which I will talk about in a 
minute, and $129 million in what we call base adjustments, or 
essentially to allow for inflation and paying our people.
    Now, within that $129 million is also an accounting change 
where money for retirement accounts was shifted out, or was 
shifted from OPM into NOAA's accounts, so that $70 million of 
that $129 million is not new programs, it is essentially just 
an accounting change within the Government. The rest of that is 
absolutely essentially for people, and I want to support the 
work that the NOAA folks do.
    We are a source of wealth for this country. This is a 
storehouse of knowledge and scientific and management expertise 
across a large variety of scientific endeavors for observation 
of and management of our environment. I ask for your support 
for these increases as a number 1 priority.
    Of the $149 million that were other program adjustments, a 
large portion of those are in the extreme weather and hurricane 
research, severe weather. In that group we are asking for $84.3 
million in increases. This will improve our severe storm 
warnings and protecting the life and safety of Americans. I 
think after the incident in La Plata that you saw the other 
day, the value of having warning time and being able to predict 
some of these events with more accuracy will be quite 
invaluable.
    Inside of that program is the money for a Clear Skies and 
Global Climate change Initiative that President Bush announced 
on February 14, and there is roughly $40 million across the 
Federal budget. Eighteen million for climate change are 
included in the NOAA budget this year. We think these are the 
first steps that are needed to put some teeth into the science 
that will help support the policies of the future and the 
provisions in the Clear Skies and Climate Change Initiative 
that the President announced.
    Of the other important increases, let me mention homeland 
security. There is a $23 million increase for homeland 
security. This is a very modest enhancement, probably the 
minimum that I would think prudent at this point. It includes 
the replacement of some single points of failure in our 
satellite and data systems in terms of back-up computing, in 
terms of gateway operations, and in terms of security for some 
of our downlink stations, as well as increase for surveys, for 
ship surveys. There is another $9.9 million to support the 
harbor surveys of our critical ports around the Nation.
    The other large increase is in the fisheries area, $90 
million of increases that I think are extremely important. Half 
of that roughly is the second fisheries research and survey 
vessel, about $45 million. This is the second of the class. We 
are well behind in replacement of our capital assets in our 
survey fleet. This is not enough, but it is a start, and I 
encourage everyone to support this particular recapitalization.
    We have also increased stock assessments by almost $10 
million, because that goes into making rulings on time and 
ensuring that we have the right data to manage fisheries 
correctly. We have increased money for observers, and that is 
extremely important as well.
    In terms of our coastal conservation activities, that 
totals almost $350 million. It is central to environmental 
monitoring, and underscores our commitment to coastal, 
estuarine and marine ecosystems, coastal zone management, 
marine sanctuaries, estuarine research reserves and marine 
protected areas, as well as coral reef habitat and other 
conservation and restoration programs, as well as the Pacific 
Salmon Recovery Fund and Treaty.
    This concludes my opening statement. I again thank you and 
the Committee for giving me this opportunity, and I look 
forward to answering your questions.
    Thank you, sir.
    [The prepared statement of Vice Admiral Lautenbacher 
follows:]

    Prepared Statement of Vice Admiral Conrad C. Lautenbacher, Jr., 
(Retired), USN, NOAA Administrator and Under Secretary of Commerce for 
             Oceans and Atmosphere, Department of Commerce

    Thank you, Mr. Chairman, and Members of the Committee, for this 
opportunity to testify on the President's FY 2003 Budget Request for 
the National Oceanic and Atmospheric Administration (NOAA).
    Let me begin by saying that this budget supports and enhances the 
goals of the President and the Department of Commerce. NOAA has 
established itself as one of the world's premier scientific and 
environmental agencies. We are an agency that deals with environmental 
change. We are an agency whose products form a critical part of the 
daily decisions made by Americans across the Nation and have economic 
impacts which affect our Nation's Gross Domestic Product. From our 
climate predictions that impact farming and financial decisions, to our 
hydrological products that affect public utilities and energy 
consumption, NOAA is a critical part of our Nation's economic security.
    We are experts in climate, with its cooling and warming trends. We 
are an agency that manages fluctuating fisheries and marine mammal 
populations. We observe, forecast and warn the public about the rapidly 
changing atmosphere and especially severe weather. We monitor currents 
and tides, and beach erosion. We survey the ocean bottom and provide 
mariners with products to maintain safe navigation. We operate the 
Nation's most important constellation of earth-observing satellites. 
Lastly, we provide all this knowledge and exploration to citizens 
everywhere, especially to schools and young people across our Nation 
through our website www.noaa.gov. We provide this as a result of our 
mission to advance environmental assessment, environmental prediction, 
and natural resource stewardship for our great Nation.
    This budget supports products that are essential for decision 
makers in every part of our economy. NOAA's budget will continue to 
fund products that assist in protecting the health and safety of this 
Nation's citizens from both routine and severe environmental changes. 
This budget supports our research, science and services from the local 
weather forecast offices around the Nation to our Fisheries Research 
Vessels that ensure sustainable stocks of our Nation's fisheries. It 
provides for technology infusion and critical infrastructure protection 
to reduce single points of failure for our satellite and weather 
prediction programs; continues our special partnerships with 
universities, states, and local governments around the Nation; and 
invests in education and human resources. This budget also supports our 
vast infrastructure, which will allow NOAA to continue its mission in 
years to come.
    In a period of strongly competing Presidential priorities for our 
national defense, and economic security, the President's FY 2003 Budget 
Request for NOAA is $3,330.5 million in total budget authority, and 
represents a decrease of $45.4 million below the FY 2002 Enacted level. 
Within this funding level, NOAA proposes essential realignments that 
allow for a total of $148.8 million in program increases, and $129.0 
million in base adjustments. NOAA's request highlights critical areas 
such as People and Infrastructure, Improving Extreme Weather Warnings 
and Forecasts, Climate Services, Modernization of NOAA Fisheries, and 
other key NOAA programs such as Energy, Homeland Security, Ocean 
Exploration, and Coastal Conservation.
People and Infrastructure: $129.0 million adjustment-to-base
    NOAA's people and infrastructure are at the heart of what NOAA is 
and does. From our hurricane research center in Miami, FL to NOAA's 
weather service office in Barrow, AK, these are the underlying and 
interconnecting threads that hold NOAA and its programs together. 
Investments in NOAA's scientific and technical workforce as well as 
NOAA's facilities and equipment is essential for us to carry out our 
mission into the 21st Century. ``People and Infrastructure'' is about 
investing in the future, and about maintaining NOAA's infrastructure 
that has been built over the last thirty-one years.
Improving Extreme Weather Warnings and Forecasts
    Critical to meeting our 21st Century mission is the continuity of 
NOAA's Satellites and Severe Weather Forecasts. There are few things 
that the Federal Government does that are as critical as issuing severe 
storm warnings and protecting the life and safety of Americans. Listed 
below is NOAA's request for this $84.3 million endeavor.
    Tornado Severe Storm Research: NOAA requests a total of $1.0 
million to develop new technologies for forecasting and detecting 
tornadoes and other forms of severe weather, and to disseminate this 
information to emergency managers, the media, and the general public 
for appropriate action. This new technology has the potential to 
significantly extend lead times for tornadoes and other forms of severe 
and hazardous weather. Coupled with advanced decision support systems, 
tornado lead times may double from 10 to 22 minutes using this 
technology. The bottom line is that this investment will help save 
lives.
    U.S. Weather Research Program (USWRP): NOAA requests an increase of 
$1.0 million for a total of $3.8 million to transition research and 
development into operations in order to reach a USWRP goal of improving 
forecasts of inland heavy precipitation associated with hurricane 
landfalls. This increase will be used to address the improvement of the 
forecasts of heavy and frequent, flood-producing rains associated with 
hurricanes and tropical storms as they move inland.
    Weather & Air Quality Research Laboratories: NOAA requests an 
increase of $4.2 million for a total of $48.1 million to recapitalize 
the laboratories that conduct weather and air quality research, which 
includes funding for ongoing operational scientific activities to 
continue operation of the Wind Profiler Network and NOAA's Space 
Weather Program.
    Advanced Hydrological Prediction Service (AHPS): NOAA requests an 
increase of $4.7 million for a total of $6.2 million to accelerate 
nationwide implementation of improved flood and river forecasts 
services in the Northeast, Middle Atlantic, and Southeast regions of 
the U.S., including the states of: New Hampshire, Vermont, Virginia, 
North Carolina, and South Carolina. As implemented, AHPS will: (1) 
produce new information with better predictions of river height and 
flood potential to reduce loss of life and property; (2) deliver high 
resolution, visually oriented products to provide partners and 
customers with valuable information for life decisions; (3) refresh 
aging hydrologic forecasting infrastructure to support rapid infusion 
of scientific advances; and (4) leverage NOAA's investments in 
observational systems and atmospheric models to enhance accuracy and 
resolution of river forecasts.
    Weather & Climate Supercomputing: NOAA requests an increase of $6.2 
million for a total of $21.2 million to continue operations and 
maintenance of the current National Weather Service (NWS) 
supercomputer, and to transition the next generation weather and 
climate supercomputing system into operations. The NWS supercomputer is 
the foundation for all NWS weather and climate forecasts. Operational 
transition of the next generation supercomputer will enable the NWS to 
improve the resolution and forecast accuracy of the prediction models.
    Radiosonde Replacement: NOAA requests an increase of $2.0 million 
for a total of $7.0 million to continue replacing and modernizing the 
upper air radiosonde network. The radiosonde network provides critical 
upper air observations which are a vital component of all weather 
forecast models. The current network is obsolete and nearing collapse, 
risking widespread loss of data within the next two to three years.
    Aviation Weather: NOAA requests a total of $2.5 million to initiate 
a 7-year plan to help improve U.S. aviation safety and economic 
efficiencies by providing state-of-the-art weather observation and 
forecast products responsive to aviation user needs. Weather accounts 
for over 70 percent of all air traffic delays, which results in greater 
expenditures by both airline customers and the airlines. In addition, 
an average of 200 general aviation pilot fatalities per year are caused 
by weather-related accidents across the U.S. This initiative will 
provide a means for the NWS to improve its aviation weather forecast 
services through 3 major components which include: (1) increasing the 
number and quality of aviation weather observations; (2) transitioning 
successful applied research efforts to operational products; and (3) 
developing and implementing new training programs for forecasters, 
pilots, and controllers. This initiative has the goal of a 10 percent 
reduction in National Airspace System weather-related air traffic 
delays, which would save $600 million annually in potential economic 
losses, and reduce general aviation weather related fatalities by 25 
percent, or 50 lives annually.
    Huntsville, AL Weather Forecast Office: NOAA requests a total of 
$1.4 million to pay for recurring operations and maintenance costs at 
the new Huntsville, Alabama Weather Forecast Office (WFO). The 
Huntsville WFO was established in FY 2002 at the University of Alabama 
at Huntsville. The $1.4 million requested will provide for NWS employee 
salaries, facilities rent and maintenance, and operational equipment 
and supplies to operate and maintain weather forecast and warning 
services in the Huntsville area.
    Polar Orbiting Systems: NOAA requests a net increase of $64.3 
million for Polar Orbiting Systems, which are comprised of NOAA Polar 
K-N and the National Polar Operational Earth Satellite System. The net 
increase requested is described as follows:
    NOAA Polar K-N: NOAA requests a decrease of $15.6 million for a 
total of $122.9 million for the NOAA Polar K-N. The Polar K-N program 
is completing major procurement items and therefore does not need to 
continue the funding levels of previous years.
    National Polar-orbiting Operational Environmental Satellite System 
(NPOESS): NOAA requests an increase of $79.9 million for a total 
request of $237.3 million for the continuation of the tri-agency NPOESS 
program that will replace the NOAA POES program after completion of the 
current NOAA K-N series of satellites. This request represents NOAA's 
share of the converged NOAA/DoD/NASA program. In FY 2003, funds will be 
required to continue the development and production of the NPOESS 
instruments, including the Visible Infrared Image Radiometer, the 
Conical Microwave Imager Sounder, the Cross-track Infrared Sounder, the 
Ozone, Mapping and Profiler Suite, the Global Positioning System 
Occultation Sensor, and the Space Environmental Sensing Suite. The 
continued development of these instruments is critical for their timely 
and cost effective delivery to replace both the Defense Meteorological 
Satellite Program (DMSP) and the NOAA POES spacecraft when needed.
    Geostationary Operational Environmental Satellite (GOES): NOAA 
requests a decrease of $35.1 million for a total request of $227.4 
million to support continued post launch requirements for GOES I-M; the 
continued procurement of the GOES-N series satellites, instruments, 
ground systems, and systems support necessary to maintain continuity of 
Geostationary operations; and planning and development for the GOES-R 
series of satellites and instruments. This decrease represents a 
program change resulting from the successful launch of GOES M, and the 
continued success of the GOES I-M series.
    Earth Observing System Data Archive & Access System Enhancement: 
NOAA requests a total of $3.0 million to ensure that NOAA can fully 
utilize the vast amounts of new satellite-based environmental data 
becoming available, process and distribute that data in a variety of 
formats, provide stewardship for the data, and make the data accessible 
to users in a variety of economic, research, government, and public 
sectors.
    Joint Center for Data Assimilation: NOAA requests an increase of 
$2.6 million for a total of $3.4 million for the Joint Center for 
Satellite Data Assimilation. NWS, the Office of Atmospheric Research 
(OAR), and NASA also provide funding as partners in this coordinated 
national effort to more fully realize the potential of the vast 
quantities of new satellite data that are becoming available.
    Coastal Ocean Remote Sensing: NOAA requests a total of $6.0 million 
to develop and deploy a prototype high-resolution imaging sensor to 
meet long-standing NOAA requirements. This initiative will allow NOAA 
to work with NASA to develop conceptual design and capabilities of this 
instrument, which will continuously monitor coastal ocean areas for 
harmful algae blooms, coral reef deterioration, pollution changes, 
fisheries management, and navigation. This instrument will provide 
continuous, high resolution monitoring in unprecedented detail of 
terrestrial features such as vegetation changes, flooding, wild fires, 
volcanic eruptions, and ash cloud transport.
    Satellite Command & Data Acquisition (CDA) Facility: NOAA requests 
an increase of $1.0 million for a total of $4.6 million to continue the 
Satellite CDA Infrastructure program. Improved facilities reduce the 
risk of outages and service disruptions caused by failure of the 
supporting buildings, facilities, and infrastructure. This program 
minimizes the risk of spacecraft loss and data loss and allows NOAA to 
continue supporting worldwide requirements for critical operational 
satellite data and services.
    Satellite Command and Control: NOAA requests an increase of $4.4 
million for a total of $34.8 million for satellite command and control. 
This investment supports the operations of the NOAA satellite systems, 
the ingesting and processing of satellite data, and the development of 
new product applications required for continuity of operations. NOAA 
provides satellite command and control services on a 24 hours per day, 
365 days per year schedule.
    Two critical components of this initiative are:
    Protecting Critical Satellite Control Facilities: NOAA requests 
$0.3 million to enhance security at the satellite Command and Data 
Acquisition ground stations by upgrading and expanding security 
lighting.
    Satellite Command and Data Acquisition Station Operations: NOAA 
requests $2.2 million for the operation of the polar Satellite Command 
and Data Acquisition (CDA) ground station. NOAA will use these funds to 
obtain the appropriate technical, management, and administrative 
contractor support to operate and maintain the acquisition and 
throughput of data from NOAA and DoD polar-orbiting satellites to 
NOAA's Satellite Operations Control Center, and to National Weather 
Centers.
    Product Processing and Distribution: NOAA requests an increase of 
$6.7 million for a total of $27.7 million to process and analyze data 
from NOAA, DoD, and other Earth-observing satellites; supply data, 
interpretations, and consulting services to users; and operate and 
maintain the Search and Rescue mission control center. This includes 
supplying satellite data that makes up approximately 85 percent of the 
data used in NWS numerical weather prediction models. NOAA will use the 
requested program increase to support the following two mission 
critical functions:
    Reducing the Risk to Continuity of Critical Operations: NOAA 
requests a program increase of $3.1 million to expand on-site 
maintenance and staffing levels to ensure that all critical functions 
are performed. This ensures vital and timely information to customers 
and staff during times of peak workload.
    Improved Support for Weather and Hazards: NOAA requests a program 
increase of $2.0 million to automate wild fire detection algorithms to 
speed up the delivery of information to customers, to integrate the 
information into geographic information systems for detailed location 
information, and to integrate new fire detection sensors from non-NOAA 
satellites.
    G-IV Instrumentation: NOAA requests a total of $8.4 million to 
begin upgrading instrumentation aboard the G-IV aircraft. Improvements 
in NOAA's Gulfstream IV aircraft's remote-sensing systems will enhance 
NOAA's hurricane-reconnaissance capability. New technology will use 
remote sensors to develop 3-dimensional profiles of hurricanes from 
45,000 feet down to the surface and would provide forecasters with 
unprecedented real-time information on size and intensity. In addition, 
radar-composite maps will provide critical rainfall information that is 
crucial to forecasters and to the emergency management community for 
preparedness and evacuations.

Climate Services
    NOAA maintains a balanced program of focused research, large-scale 
observational programs, modeling on seasonal-centennial time scales, 
and data management. In addition to its responsibilities in weather 
prediction, NOAA has pioneered in the research and operational 
prediction of climate variability associated with the El Nino Southern 
Oscillation (ENSO). With agency and international partners, NOAA has 
also been a leader in the assessments of climate change, stratospheric 
ozone depletion, and the global carbon cycle. Our confidence in our 
recent El Nino prediction is based upon a suite of robust observing 
systems that are a critical component in any forecast.
    The agency-wide Climate Services activity represents a partnership 
that allows NOAA to facilitate the transition of research observing and 
data systems, and knowledge into operational systems and products. 
During recent years, there has been a growing demand from emergency 
managers, the private sector, the research community, and decision-
makers in the United States and international governmental agencies for 
timely data and information about climate variability, climate change, 
and trends in extreme weather events. The economic and social need for 
continuous, reliable climate data and longer-range climate forecasts 
has been clearly demonstrated. NOAA's Climate Services Initiative 
responds to these needs. The following efforts will be supported by 
this initiative:
    Climate Change Research Initiative: On February 14, 2002, President 
Bush announced the Clear Skies and Global Climate Change initiatives. 
The Clear Skies plan aims to cut power plant emissions of three 
pollutants (nitrogen oxides, sulfur dioxide, and mercury) by 70 
percent. The new Global Climate Change initiative seeks to reduce 
greenhouse gas intensity by 18 percent over the next decade. The 
President's proposal supports vital climate change research and ensures 
that America's workers and citizens of the developing world are not 
unfairly penalized. NOAA's expertise will be extremely important in the 
area of climate research. NOAA, along with NASA, Department of Energy, 
National Science Foundation, and the Department of Agriculture will 
implement a multi-agency Climate Change Research Initiative totaling 
$40 million. The following sections detail NOAA's $18.0 million request 
to address key priorities of the CCRI.
    Climate Modeling Center: NOAA requests $5.0 million to establish a 
climate modeling center at Princeton, New Jersey. This center will 
focus on model product generation for research, assessment and policy 
applications. NOAA has played a central role in climate research, 
pioneering stratospheric modeling, seasonal forecasting, ocean modeling 
and data assimilation, and hurricane modeling. This core research 
capability will be enhanced to enable product generation and policy 
related research.
    Global Climate Atmospheric Observing System: NOAA requests $4.0 
million to work with other countries to reestablish the benchmark 
upper-air network. NOAA will emphasize data sparse areas, and place new 
Global Atmosphere Watch stations in priority sites to measure pollutant 
emissions, aerosols, and ozone, in specific regions.
    Global Ocean Observing System: NOAA requests $4.0 million to work 
towards the establishment of an ocean observing system that can 
accurately document climate scale changes in ocean heat, carbon, and 
sea level changes.
    Aerosols-Climate Interactions: NOAA requests $2.0 million to 
contribute to the interagency National Aerosol-Climate Interactions 
Program (joint partnership with NASA, DOE, NSF) currently under 
development. Specifically, NOAA will establish new and augment existing 
in-situ monitoring sites and conduct focused field campaigns to 
establish aerosol chemical and radiative properties.
    Carbon Monitoring: NOAA requests $2.0 million to augment carbon 
monitoring capabilities in North America as well as observations of 
globally relevant parameters in key under-sampled oceanic and 
continental regions around the globe.
    Regional Integrated Science Assessments Program: NOAA requests $1.0 
million for the Regional Integrated Science Assessments Program (RISA). 
Working with the National Science Foundation (NSF), NOAA will augment 
its research capability in assessing climate change impacts 
vulnerability by utilizing the research on ``Decision Making in the 
Face of Uncertainties'' in the framework of the RISA programs, e.g. 
Pacific Northwest.
    Arctic Research: NOAA requests a total of $2.0 million in support 
of the Study of Environmental Arctic Change (SEARCH) to improve 
monitoring of the elements of the Arctic environment. NOAA's SEARCH 
activities are part of a coordinated interagency and international 
program, begun in response to evidence of an alarming rate of 
environmental change occurring in the Arctic. The SEARCH initiative 
will substantially increase understanding of long-term trends in 
temperature, precipitation and storminess across the U.S., with 
potential improvements in forecasting and planning for energy needs, 
growth seasons, hazardous storm seasons and water resources.
    University-National Oceanographic Laboratory System (UNOLS): NOAA 
requests a total of $2.5 million to outsource with UNOLS and other 
sources for ships in the Pacific to support long-time series research 
for Fisheries-Oceanographic Coordination Investigations (FOCI), VENTS, 
Oregon/Washington Groundfish Habitat and maintenance of the Tsunami 
moorings in the Gulf of Alaska and Pacific Ocean. The increase will 
enable NOAA to continue to meet research requirements in the Pacific 
Ocean, Gulf of Alaska, and Bering Sea utilizing time aboard UNOLS and 
other vessels.
    Climate Monitoring and Ocean Observations: NOAA requests an 
increase of $5.4 million for a total of $54.6 million to recapitalize 
the laboratories that conduct climate research, which includes $0.6 
million for purchasing equipment and improving the scientific 
activities that contribute to the long-term observing systems that 
directly support the President's CCRI initiative. These observing 
systems are the Global Ocean Observing System (GOOS); the Global Air 
Sampling Network and a gas network at four baseline observatories, and 
at Niwot Ridge, CO; and the Tropical Atmosphere Ocean (TAO) array which 
is the cornerstone of the El Nino/Southern Oscillation (ENSO) Observing 
System and other ocean observing systems.
    NOAA requests an increase of $8.3 million for a total of $36.6 
million for the Archive, Access, and Assessment programs working in 
Climate Services. This continued investment will be used for the 
following activities:
    Regional Climate Services & Assessments: To develop an improved 
climate data and information delivery service. This will allow NOAA to 
improve national, regional and state linkages and make national, 
regional, state, and local weather and climate observing systems and 
data bases more accessible.
    Next Generation Environmental Information: To develop a new 
generation of World Wide Web accessible climate information and 
statistics for primary use by the energy sector of our economy. This 
funding will allow NOAA to overhaul the current methods and procedures 
for computing climate information such as heating and cooling degree 
days, heat indices, wind chills, freezing degree days, and other 
related statistics with the goal of making this information more 
appropriate and timely for business decision-making and strategic 
planning purposes.
    World Ocean Database: This investment will be used to update the 
World Ocean Database to include new sources of data and to put in place 
the analytical and data management infrastructure needed to transition 
this activity from the current research mode to a sustained, 
operational service mode.
    Extending America's Climate Record: NOAA will use the funds to 
gather key paleoclimatic records to fill gaps; reconstruct climate 
records during pre-instrumental periods; and produce blended data sets 
that integrate instrumental, historical, and paleoclimatic data into a 
holistic climate record.
    Solar X-ray Imager Archive: NOAA will use the SXI archive to derive 
new products to help reduce the effects of extreme space weather events 
on telecommunications satellites, electrical power services, and health 
risks to astronauts.

Modernization of NOAA Fisheries
    The FY 2003 President's Budget Request for NOAA, invests in core 
programs needed for our National Marine Fisheries Service (NMFS) to 
meet its mission to manage fisheries, rebuild stocks, and protect 
endangered species such as sea turtles and whales. NMFS modernization 
funds will be allocated to ensure that existing statutory and 
regulatory requirements are met for fisheries and protected species 
management programs (including the Magnuson-Stevens Act, National 
Environmental Protection Act, Endangered Species Act, Marine Mammal 
Protection Act, and other statutory requirements). This budget request 
continues NOAA's effort to modernize NOAA's Fisheries. The 
Modernization of NMFS encompasses a long-term commitment to improve the 
NMFS structure, processes, and business approaches. In addition to this 
budget request, the Administration will propose that any 
reauthorization of the Magnuson-Stevens Fisheries Conservation and 
Management Act include authority for fishing quota systems within 
regional fisheries, including transferable quotas, where appropriate. 
This initiative focuses on improving NMFS' science, management, and 
enforcement programs and begins to rebuild its aging infrastructure. 
These improvements will result in measurable progress in the biological 
and economic sustainability of fisheries and protected resources. To 
continue this modernization program, NOAA's FY 2003 President's Budget 
Request includes the following program investments in Science, 
Management, and Enforcement.

Science: $74.8 Million Increase
    Fisheries Research Vessel: NOAA requests an increase of $45.5 
million for a total of $50.9 million for NOAA's second Fisheries 
Research Vessel (FRV2). This vessel will replace the 39-year old 
ALBATROSS IV in the North Atlantic. Costs of maintaining the aging 
ALBATROSS IV for the five years needed to construct the replacement FRV 
and to allow side-by-side missions for calibration purposes are 
escalating. Moreover, replacing the aging fleet is required to provide 
research platforms capable of meeting increasingly sophisticated data 
requirements for marine resource management.
    Modernize Annual Stock Assessments: NOAA requests an increase of 
$9.9 million to modernize annual stock assessments. Funding will allow 
NMFS to conform to new national stock assessment standards of data 
quality, assessment frequency, and advanced modeling. An increase of 
$5.1 million is requested to provide for the recruitment and training 
of stock assessment biologists and supporting staff to produce annual 
stock assessments that meet the new standard for Federally managed 
stocks. This request would also add an increment of 260 Fisheries 
vessel/charter days at sea toward the balance of 3,000 days identified 
in the NOAA Fisheries Data Acquisition Plan at a cost of $2.4 million. 
The initiative includes $0.9 million for advanced sampling 
technologies. This element targets improvements and innovative uses of 
existing technologies, including the application of new and advanced 
sampling systems and approaches. Also, included in this request is $1.5 
million to enhance fisheries oceanography studies, principally, the 
Fisheries and the Environment program (FATE).
    Endangered Species Act Sea Turtle Research: NOAA requests an 
increase of $2.0 million for a total of $6.5 million to continue the 
recovery of highly endangered sea turtles. Of the $2.0 million 
increase, $1.4 million is to provide the necessary research to recover 
highly endangered marine turtles. This program is designed to help us 
collect information on biology and habitats and share that information 
with other range countries. The remaining $0.6 million is requested to 
implement management strategies to reverse population declines, 
implementation of multi-lateral international agreements, and building 
capacity through domestic and international educational and outreach 
programs.
    Columbia River Biological Opinion (BiOp) Implementation: NOAA 
requests an increase of $12.0 million to provide for the research, 
monitoring, and evaluation (RM&E) necessary to continue implementation 
of measures included in the Columbia River Biological Opinion. The RM&E 
program will provide the scientific information necessary to assess 
whether BiOp performance measures are being achieved at 2003, 2005, and 
2008 check-ins. This funding also provides for the research needed to 
address key uncertainties identified in the BiOp in the areas of 
estuary and near-shore ocean survival, delayed effects related to dam 
passage, and the effects of hatchery programs on the productivity of 
naturally spawning fish.
    Recovery of Endangered Large Whales: NOAA requests an increase of 
$1.0 million to provide resources to scientifically determine whether 
two key endangered whales--humpbacks and bowheads--have recovered and 
are candidates for delisting. This information will enable NOAA to 
detect changes in the status of large whales and prevent any long-term 
irreversible damage to these populations.
    Socioeconomics: NOAA requests an increase of $1.5 million for a 
total of $4.0 million to support the on-going development of a multi-
year comprehensive social sciences program to support NMFS policy 
decisions. The approach is 3-tiered, augmenting the integral components 
of a successful social sciences program that includes staffing ($0.6 
million and 7 FTE); data collection ($0.5 million); and research 
activities ($0.4 million). In combination, the funding will be used to 
continue addressing shortcomings in economic and social assessments of 
policy alternatives by improving the economic and social science staff 
capability, and initiation of data and applied research programs.
    National Observer Program: NOAA requests an increase of $2.9 
million for a total of $17.0 million for the National Observer Program. 
Funding will be used to expand the collection of high quality fisheries 
and environmental data from commercial and recreational fishing vessels 
to assess impacts on marine resources and fishing communities and to 
monitor compliance with marine resource laws and regulations. This 
request will primarily provide for approximately 4,000 observer sea 
days spread over 11 fisheries, most of which are currently unobserved.

Management: $6.4 Million Increase
    NMFS National Environmental Policy Act (NEPA) Implementation: NOAA 
requests an increase of $3.0 million for a total of $8.0 million to 
continue striving to enhance its management of the NEPA process. This 
funding will provide NMFS with the necessary resources to continue to 
support agency-wide NEPA activities and will allow NMFS to strengthen 
its decision-making and documentation process to more fully take 
advantage of the decision making tools provided by NEPA.
    Regional Fishery Management Councils: NOAA requests an increase of 
$1.9 million for a total of $16.0 million for the Regional Fishery 
Management Councils. This request will provide needed resources for the 
Councils to respond to increased workload in developing, implementing, 
and supporting management measures to eliminate overfishing and rebuild 
overfished stocks; identify and protect essential fish habitats; reduce 
fisheries' bycatch to the maximum extent practicable; minimize the 
impacts of fishing regulations on fishing communities; and to implement 
programs that result from the next reauthorization of the Sustainable 
Fisheries Act. These results will be achieved through the development 
of amendments to and creation of new Fishery Management Plans and 
regulations and corresponding and supporting international management 
measures to control fishing activities.
    Statutory and Regulatory Requirements: NOAA requests an increase of 
$1.5 million to provide for thorough, complete, and timely 
environmental and economic analyses to NOAA customers and for its 
recovery programs. Funds will support personnel in all NMFS regions, 
science centers and headquarters to conduct required data gathering, 
analysis, and document preparation to assess the impacts of human 
activities that affect protected species. These include the range of 
Federal actions, including management of marine fisheries. This funding 
will also support assessments of the environmental and socioeconomic 
impacts, costs and benefits of implementing conservation programs for 
protected species.

Enforcement: $9.7 Million Increase
    Enforcement and Surveillance: NOAA requests an increase of $4.3 
million for a total of $39.3 million to expand and modernize NMFS' 
fisheries and protected species enforcement programs. These programs 
include Alaska and west coast groundfish enforcement, protected species 
enforcement, state and local partnerships, specialized Magnuson-Stevens 
investigatory functions, community oriented policing and problem 
solving, and swordfish/Patagonian toothfish import investigations.
    Vessel Management System (VMS): NOAA requests an increase of $5.4 
million for a total of $7.4 million for additional support and 
continued modernization and expansion of the vessel management system 
(VMS) program. These resources will create a program which will monitor 
approximately 1,500 vessels and is readily expandable. VMS technology 
is an invaluable tool for modern fisheries management. It provides 
outstanding compliance without intrusive at-sea boardings, enhances 
safety at sea, and provides new tools to managers for real time catch 
reporting.

Other KEY NOAA Programs
    NOAA is constantly pursuing areas where the expertise of our 
researchers, scientists, and staff can contribute to solving problems. 
Therefore, NOAA has other key programs that respond to these 
challenges. They are Energy, Homeland Security, Ocean Exploration, and 
Coastal Conservation.

Energy
    Energy Initiative: NOAA requests a total of $6.1 million to 
implement a pilot program that will provide more accurate temperature 
and precipitation forecasts, and additional river forecast products to 
help the energy industry improve electrical load forecasting and 
hydropower facility management. Based on industry estimates, this 
investment will result in savings of $10 to $30 million annually in the 
pilot region after the second year of the demonstration. Expanding the 
pilot nation-wide could generate savings of over $1 billion per year.
    Energy Permit Rapid Response: NOAA requests a total of $2.0 million 
to support the establishment and implementation of a streamlined energy 
permit review process. This proposal responds to an Executive Order 
directing Federal agencies to expedite permits and coordinate Federal, 
state, and local actions needed for energy-related project approvals on 
a national basis and in an environmentally sound manner. The goal of 
this request is to reduce, by 25 percent, the time required to adjust 
the permits of licensed energy projects/facilities. Currently, re-
licensing of existing facilities takes 6-10 years. It is anticipated 
that the combination of regular re-licensing and permit adjustments to 
implement the new National Energy Policy will result in thousands of 
new actions for NOAA nationally.
    Energy Management: NOAA requests a total of $0.6 million for Energy 
Management. The requested funds will be used to reduce NOAA's facility 
operating costs through actively pursuing energy commodities at 
competitive prices, identifying and implementing energy savings 
opportunities and applying renewable energy technologies and 
sustainable designs at NOAA-managed facilities. Many of the equipment 
retrofits that are a part of energy management have enabled facilities 
to recover their costs in less than five years.

Homeland Security
    On September 11, 2001, the Nation experienced an unprecedented 
attack on the World Trade Center and the Pentagon. NOAA immediately 
implemented its agency-wide Incident Response Plan, and was able to 
rapidly deploy critical assets, capabilities, and expertise to support 
response and recovery efforts. NOAA personnel in weather offices, 
satellite and remote sensing teams, hazardous materials units, marine 
transportation and geodesy offices, and fisheries enforcement teams 
provided a wide range of products and services.
    NOAA's response to the September 11 attacks was rapid and focused. 
However, the attack fundamentally altered the context of NOAA's 
incident response planning. The threats resulting from attacks on the 
nation may be different in nature, and larger in scale and scope. Thus, 
NOAA's Homeland Security efforts are focused on enhancing its response 
capabilities and improving internal safety and preparedness. NOAA is 
working quickly to improve its ability to coordinate emergency 
response, to evaluate its existing capabilities, and to identify 
products and services that will meet the challenge of new response 
realities. NOAA's Homeland Security activities are dedicated to 
advancing the coordinated efforts within the Department of Commerce, 
the Office of Homeland Security and assisting NOAA's many federal, 
state, and local partners.
    In FY 2003, funding is requested to address the most immediately 
recognized areas of programmatic vulnerabilities to ensure the 
continuity of the most critical of NOAA's services and information 
products in the event of natural or man-made emergencies.
    Vessel Lease/Time Charter: NOAA requests an increase of $9.9 
million for a Vessel Lease/Time Charter. In FY 2003, NOAA will continue 
assisting DOD in mapping and charting key port areas. NOAA will 
initiate a vessel time charter to expand its hydrographic surveying 
capacity. While having the capability to operate throughout America's 
Exclusive Economic Zone (EEZ), initial emphasis during FY 2003 will be 
in the Gulf of Mexico. Ninety five percent of America's non-NAFTA 
economic trade moves through the marine transportation system. Any 
interruption in the flow of goods through our nation's marine transport 
system yields immediate and dire impact to the national economy. Four 
of the top seven port areas are found on the Gulf of Mexico, including: 
(1) New Orleans and South Louisiana, (2) Houston/Galveston, (3) Port 
Arthur, TX and Lake Charles, LA; and (4) Corpus Christi, TX. The 
combination of high traffic, hazardous cargos and vessels operating 
close to the ocean bottom make waterways and ports particularly 
vulnerable to terrorist activities including those utilizing low 
technology mines. Requested funding provides critical survey data to 
directly enhance safety of mariners, passengers, and the national 
economy from threats both natural or human in origin.
    NESDIS Single Point of Failure: NOAA requests a total increase of 
$2.8 million to provide backup capability for all critical satellite 
products and services. This effort supports the continuity of critical 
operational satellite products and services during a catastrophic 
outage. In FY 2003, NOAA will begin the first phase of hardware, 
software, and telecommunications purchases; and perform initial testing 
of all capabilities for this backup system. The requested funding also 
supports installing additional communications links to connect the 
backup location to the NOAA Science Center in Camp Springs, Maryland.
    Satellite Facilities Security: NOAA requests a total of $2.3 
million, an increase of $0.3 million, to maintain enhanced security at 
the satellite Command and Data Acquisition ground stations. NOAA 
requires these funds to enhance the systems that protect these 
stations, reducing the risk to satellites and ground systems due to 
breaches in security. These satellite stations represent the backbone 
of the ground systems that support NOAA spacecraft programs--
commanding, controlling, and acquiring data from on orbit satellites 
with an estimated value of $4.5 billion.
    NWS Gateway Critical Infrastructure Protection: NOAA requests a 
total of $3.0 million for the National Weather Service 
Telecommunications Gateway Backup (NWSTG). During FY 2003, this funding 
will enable the NWS to complete the establishment of the NWSTG 
facility. After scheduled deployment in early FY 2004, the continued 
funding level of $3.0M will cover recurring costs for NWSTG backup 
communications, system software licenses, systems operations and 
maintenance support, facility rent, and cyclical technology 
refreshment. This will ensure uninterrupted delivery of critical 
meteorological data necessary for the protection of life and property, 
and the economic well being of the Nation.
    Weather & Climate Supercomputing Backup: NOAA requests a total of 
$7.2 million to implement an operational backup system for the NWS 
weather and climate supercomputer. The NWS weather and climate 
supercomputer is a critical component of NOAA's mission and is 
currently a single point of failure as the entire system is located in 
a single facility. Many of the data, products and services provided by 
and through the Central Computer System (CCS) directly contribute to 
the issuance of life saving NWS watches and warnings to the public. The 
NWS weather and climate supercomputing backup system is a critical part 
of DOC's Homeland Security Initiative and NOAA's comprehensive business 
continuity plan, designed to support uninterrupted data and product 
delivery to NOAA customers. The National Center for Environmental 
Prediction's (NCEP) CCS is currently the only computer system within 
NOAA capable of running highly complicated forecasting models in the 
required operational (regimented) mode. During FY 2003 the NWS will 
acquire the necessary backup system hardware capability, conduct site 
selection, and begin installation.
    Commercial Remote Sensing Licensing: NOAA requests a total of $1.2 
million for the Commercial Remote Sensing Licensing and Enforcement 
Program to ensure the timely review and processing of satellite license 
applications. This NOAA investment will support staff engaged in the 
review of commercial remote sensing licensing applications. NOAA will 
also support monitoring and compliance activities, which include the 
review of licensee quarterly reports, on-site inspections, audits, and 
license violation enforcement. The funds requested in FY 2003 will also 
support implementation of shutter control over commercial systems to 
ensure that our Nation can respond to commercial remote sensing 
security issues in national security and foreign policy crisis 
situations.

Ocean and Coastal Programs
    NOAA requests a total of $14.2 million for Ocean Exploration, this 
includes a small amount for adjustments-to-base. This program seeks to 
increase our national understanding of ocean systems and processes 
through partnerships in nine major voyages of discovery in FY 2003. 
Ocean Exploration is investment in undersea exploration, research, and 
technology in both the deep ocean and areas of special concern, such as 
the U.S. Exclusive Economic Zone (EEZ), and National Marine Sanctuaries 
(NMS).
    NOAA's coastal conservation activities total $348.5 million, and 
are central to accomplishing the mission of environmental monitoring, 
and underscore a commitment to coastal, estuarine, and marine 
ecosystems. NOAA's activities include Coastal Zone Management; Marine 
Sanctuaries, Estuarine Research Reserves, and Marine Protected Areas; 
Coral Reefs, Habitat, and Other Coastal Conservation & Restoration 
Programs; and Pacific Salmon recovery Fund and Treaty. Many of these 
programs receive adjustments-to-base, and there is an increase for 
Cooperative Conservation and Recovery with States. NOAA requests a 
total of $1.0 million for Cooperative Conservation and Recovery with 
States to provide funds to state partners under the Endangered Species 
Act Section 6 cooperative conservation program. These agreements will 
provide the means for states and local communities to undertake local 
initiatives in the management and recovery of ESA-listed and candidate 
species by providing the legal authority to make the decisions about 
how best to protect species at risk of extinction. The agreements would 
provide funding on a matching basis to accomplish conservation 
activities. Funding provided to the states would support local 
researchers, non-governmental organizations and volunteers to 
accomplish monitoring, restoration, science and conservation 
activities.

Financial Management in NOAA
    NOAA will continue to improve its core financial management 
responsibilities in order to meet the future needs of NOAA and its 
stakeholders. NOAA has placed a high priority on the proper execution 
and accounting of its resources. Key budgetary and financial management 
improvements are centered around three key areas: (1) Improved Funds 
Control and Execution through Automation; (2) Improved Budget 
Structure; and (3) Improved Outreach and Communications.

Improved Funds Control and Execution through Automation
    Included in the FY 2003 request is $16.1 million for NOAA's share 
of the Commerce Administrative Management System (CAMS). CAMS will 
contribute to improved financial management in a number of significant 
ways, primarily by accounting for NOAA's expenditures and maintaining 
NOAA's clean audit opinion. While NOAA has made significant efforts to 
retain its clean audit opinion for a third consecutive year, it has 
done so with inefficient manual, error-prone business processes that 
are labor-intensive. Without significant amounts of overtime and 
creative manual resource tracking, NOAA's accounting details would be 
non-existent. CAMS will provide financial managers with on-line, real-
time, and accurate financial information and will enable NOAA and DOC 
to meet statutory obligations under the Federal Managers' Financial 
Integrity Act (FMFIA) and the Chief Financial Officers Act (CFO Act).

Improved Budget Structure
    In the FY 2003 budget, legislation is requested to establish a 
Business Management Fund (BMF) for corporate centralized services in 
NOAA. For decades, NOAA has managed its centralized services through a 
funding mechanism supported in its current financial management system, 
FIMA, known as indirect costs. The process by which funds were 
collected and distributed to support centralized services was 
convoluted at best, and fraught with inconsistencies. Three years ago, 
NOAA began a comprehensive effort to review its corporate funding 
methodologies and work toward moving its headquarters management fund 
into a business-like environment. A number of improvements have been 
realized already, including stability in corporate charges for three 
years in a row, returning unspent corporate costs, and reporting to 
customers the status of funds mid-year and at year-end. However, to 
complete this effort of truly realizing a business fund operation, NOAA 
requires legislation. No current legislation exists for NOAA to operate 
this fund, particularly after FIMA is replaced by CAMS. Once 
legislation is secured, NOAA will begin to develop budgetary 
documentation with the same rigor and reporting as required with 
appropriated funds. Already underway, in support of this effort is 
NOAA's initiative to implement Activity Based Costing (ABC) across all 
of the Office of Finance and Administration's key business lines. ABC 
studies are being completed to compute costs for services such as human 
resources, grants, and eventually all other support services. The end 
result of these studies will be the ability to charge customers a fee 
for services, based on actual and estimated usage, and by the specific 
services required. This will replace the flat rate, off-the-top 
methodology employed today and will allow charges to be tailored to 
line offices' specific requirements. NOAA is committed to bringing its 
corporate services up to 21st century standards, and the flexibility of 
a business management fund is a cornerstone of our plan.
    Over the past several years, NOAA has been working to respond to 
Congressional concerns regarding its budget structure. NOAA, in 
conjunction with both Congressional and Administration assistance, 
recently restructured the budget during the FY 2002 Appropriations 
process. However, this effort is just a beginning, and NOAA will 
continue to work with Congress to ensure that our budget is adapted to 
Congressional reporting needs and concerns. For example, in the FY 2003 
budget, NOAA has added additional specialty tables that will allow 
Congress to track budgetary initiatives that cross multiple programs 
and/or NOAA Line Offices, and NOAA has enhanced its base narratives to 
be more descriptive. Also, in support of flexible budgetary reporting, 
NOAA is developing a budget database that moves its tracking tables 
from the current lotus driven environment to a database environment. 
This will allow for more accurate tracking, quicker response to 
inquires, and allow for greater flexibility in preparing budgetary 
charts in response to Congressional and Administrative inquires. In 
conjunction with OMB, NOAA has developed a simplified tracking table 
that clearly indicates NOAA's primary mission areas.
    Finally, NOAA began an effort to conduct a position and FTE 
management review. This effort began in FY 2002 and was adopted during 
the FY 2002 appropriations process. The FY 2002 efforts focused 
developing an accurate baseline of FTEs based on actual usage. The 
baseline was completed and has been implemented. In FY 2003, NOAA's 
efforts will focus on ensuring that the positions associated with this 
new baseline are aligned properly with program requirements.

Sea Grant
    I would also like to explain the Administration's proposal to 
transfer funding for the Sea Grant College Program to the National 
Science Foundation (NSF). The Sea Grant program plays an important role 
in marine and coastal research and is a cost-effective way to address 
new problems in marine research management. Under the Administration's 
proposal, the current Sea Grant structure would be replaced with a 
university-based coastal and ocean program modeled after the NSF 
centers, with input from researchers, educators and practitioners, 
through workshops. NSF will retain the Sea Grant College designation 
for qualified centers. The program will be open to all public and 
private institutions of higher education through a fully competitive 
process. NSF also has a lower matching requirement, so state and local 
funds will be freed up to address outreach and extension needs of local 
communities. NOAA will have a strong role in setting research 
objectives for the program. To ensure the program transfer does not 
adversely affect current awardees, NSF will transfer funds to NOAA to 
support the current award commitments through the duration of their 
grant period.
    Several studies of the Sea Grant Program have noted its 
effectiveness, as well as its problems. In 1994, the National Research 
Council (NRC) found that NOAA's Sea Grant Program has played a 
significant role in U.S. marine science, education, and outreach. The 
review's recommendations included better defining the roles of the 
National Sea Grant Office, the Sea Grant College programs, and the Sea 
Grant Review Panel, and streamlining the proposal review and program 
evaluation processes. Many of the recommendations of the NRC report 
have been adopted by the program and were also incorporated in the 1998 
Amendments to the National Sea Grant College Program Act. In a November 
2000 study, entitled ``A Mandate to Engage Coastal Users,'' a committee 
led by Dr. John Byrne of Oregon State University and the Kellogg 
Commission indicated Sea Grant has been effective in facilitating the 
Nation's sustainable development of coastal resources by helping 
citizens make better informed and wiser decisions. Twenty-two of the 30 
state Sea Grant Programs have undergone performance evaluations by 
teams of outside reviewers and Sea Grant peers. Sixteen were graded 
``excellent'' in achieving significant results. A program was graded 
``excellent'' if it produced significant results, connected Sea Grant 
with users, and was not found to need improvement in areas such as 
long-range planning and management. Sea Grant's 1999 Hammer Award-
winning program in seafood safety training and the national marina 
management effort are examples of other successful national programs.
    Through the years, a number of successful partnerships have been 
established between NOAA and the National Science Foundation (NSF), 
such as the Teacher-at-Sea Program, our partnerships with NSF on the 
U.S. Global Change Research Program and the U.S. Weather Research 
Program, as well as the Study of Environmental Arctic Change (SEARCH) 
program. And, NSF supports some applied research programs, such as the 
Small Business Innovation Research and Technology Transfer programs.

Conclusion
    NOAA's Fiscal Year 2003 Budget request invests in people, climate, 
energy, homeland security, infrastructure, and high priority research, 
science, and services. This budget maintains NOAA on its course to 
realize its full potential as this nation's premier environmental 
science agency. NOAA is also doing its part to exercise fiscal 
responsibility as stewards of the Nation's trust as well as America's 
coastal and ocean resources. And, in the same way that NOAA is 
responsible for assessing the Nation's climate, we are responsible for 
assessing and improving our management capabilities. NOAA will continue 
to respond to key customers and stakeholders, and will continue to 
leverage its programs and investments by developing those associations 
that most efficiently and economically leverage resources and talent, 
and that most effectively provide the means for successfully meeting 
mission requirements. Thank you for the opportunity to present NOAA's 
fiscal year 2003 budget.

    Senator Wyden. Let me thank you, Vice Admiral Lautenbacher. 
Let me start with several issues that are important to my 
State. As you know, you all have jurisdiction over West Coast 
groundfish, fishery observers, overcapacity and buy-back 
disaster money, bycatch, overages, stock assessments--the list 
really goes on and on.
    Tell me where the administration is first on West Coast 
groundfish buy-outs.
    Admiral Lautenbacher. Since I came into office, which is 
about 4 months now, I asked the National Marine Fisheries 
Service to start working on a comprehensive program that would 
take a look at some of the alternatives that you and I 
discussed the last time we met. We are in the process of doing 
that. I am hoping to have some initiatives that will be 
available for discussion within the administration for the 
fiscal year 2004 budget. I have looked at some of the pilot 
programs, if you want to call them that, and our attempts to do 
this over the last 4 or 5 years.
    We have some history of it. Some of it has worked, some of 
it has not worked. There needs to be a better effort to produce 
a comprehensive program that will satisfy these needs. I 
believe we have got an effort going out to accomplish that, 
Senator.
    Senator Wyden. I have got to tell you, these people are 
bleeding, Vice Admiral Lautenbacher, and I do not sense any 
kind of urgency at all about the way you are approaching this. 
I am sorry, I would like to be diplomatic here, but you just 
said we hope to have discussions within the administration for 
the 2004 budget. These people are just devastated, and to hear 
that somebody in Washington is having some discussions does not 
provide much solace to families that are just flat--is there 
anything you can do to give some sense that something is going 
to happen any time soon?
    To these people, this is the longest-running battle since 
the Trojan War. I mean, it just kind of goes on and on, and it 
looks like, well, the people in Washington are having some 
discussions. Well, that is what they do in Washington. 
Everybody shows up and has some discussions and they pass 
around some paper, then from time to time the paper leads to 
some more discussions, and now you have told the U.S. Senate 
Committee with jurisdiction over your agency that in your view 
we are going to have some discussions within the administration 
to see if we can address this in the 2004 budget. It does not 
sound like anything is going to help our people any time soon.
    Admiral Lautenbacher. I am doing the best that I can with 
the time and the assets that I have. I have been there for 3 to 
4 months. I agree that this is a significant problem. I have 
discussed it with my bosses, and I have initiated action within 
our agency to produce plans to help with the problem.
    You need to have a good solid idea of something that will 
work, of something that enough people can support.
    Senator Wyden. Why don't we look at the bipartisan 
legislation that Senator Smith and I have? That is a really 
good, science-based idea of something that will work.
    Admiral Lautenbacher. We will certainly look at that.
    Senator Wyden. Is there any reason why you have not looked 
at it now? You could use this opportunity to endorse it and say 
this is something that makes some sense. This is not something 
we just threw together. This is a bipartisan proposal.
    Admiral Lautenbacher. And we certainly will do that. I will 
certainly take that into consideration. Absolutely we will look 
at it.
    Senator Wyden. The combination of the groundfish disaster 
and the lack of a capacity reduction program has just made 
things worse for the fishers, and to provide some relief, I and 
others have tried to provide these fishing families with 
disaster relief money as well as to continue funding the 
successful groundfish disaster outreach programs.
    The President's budget zeroes both of those out as well, so 
we have got a situation, as far as I can tell, where nothing is 
going to happen any time soon on the buy-backs because we are 
kind of studying that and the like, and the programs that help 
people when they are flat on their back now have been zeroed 
out in the budget.
    Do you all have any plan for providing relief to these 
fishing families during this disaster now?
    Admiral Lautenbacher. There is no money I know of available 
in the budget to support that right now.
    Senator Wyden. Does that bother you? Can you make the case 
that that ought to be changed, or in some way dealt with?
    Admiral Lautenbacher. As I said, I am trying to produce 
plans which will help in the future to solve the problem. I 
have no immediate way at my disposal to change that at this 
point. The fiscal year 2003 budget has been created and sent 
in. It was created before I got there. I was not part of the 
decision process that created it, necessarily, although I am 
here to support it, and I am trying to support it the best that 
I can.
    Senator Wyden. How are you going about trying to change it? 
I mean, I have asked you about the buy-back program. That is a 
program that provided the long-term approach. Now I would just 
ask you about two programs, the President's budget zeroes out 
the groundfish disaster outreach program, and those programs 
that provide critical help today, and you have said you have 
been trying to change that. How have you been doing that?
    Admiral Lautenbacher. Well, I think that if we can--we need 
to break this ping-pong cycle that we have of earmarks and the 
administration taking them out. It does not really matter which 
administration does this. This continues back and forth.
    I would like to figure out how to work in some of the 
critical issues that are represented here today by you, sir, in 
the Senate, into the programs we already have so that they can 
be incorporated properly and perhaps maintain their presence in 
the budget, shall we say, continuously as it goes back and 
forth, instead of each year being considered a one-term project 
and then eliminated and put back in as a one-time project, and 
we continue this game. I think we need to work together more to 
incorporate things into the base budget so that they do not 
suffer the same fate in the future.
    Senator Wyden. Well, I think that is useful. Again, it is 
just hard to see how anything is going to happen any time soon. 
I mean, the buy-back program is something you are going to 
discuss for the 2004 budget. We have zeroed out the disaster 
relief programs. Could you make available to me, so I could see 
it some of the memoranda or others that you have written trying 
to get some changes in this area? I want to see that the point 
person is moving with some urgency on these issues, because 
that is what I sense is not taking place here.
    You are a decent fellow, and we appreciate working with 
you, but on both of these issues, the buy-back program and the 
programs to help people that have just seen their lives 
shattered, I do not get the sense much of anything is going to 
happen soon; and if you could get me some of the documents that 
you have sent, maybe information that you have transmitted to 
Mitch Daniels or others, making the case that these are cuts 
that are going to take a toll; I would like to see that, 
because I think we want to see that a real effort is underway 
to make some changes here.
    Admiral Lautenbacher. Well, Bill Hogarth will be here next 
week, and I assure you that he will, I am sure, express my 
urgency to you as well, that he is the point man, and he is 
working on these things, and he understands that we are serious 
about trying to build some solutions that will have bipartisan 
support, as well as support within the administration, which is 
a very difficult task.
    Senator Wyden. Dr. Hogarth is a decent fellow as well, and 
I have had some of these conversations with him, as you know, 
in recent weeks as well. But my understanding is you are still 
the person who runs the shop, and at some point we have got to 
see somebody who is really trying to bring about some changes, 
because the problems were serious before you were in place, and 
they just seem to grow more serious as time goes on, and I just 
do not see the level of interest in this, frankly, that is 
warranted.
    What would you think of the idea of money to fishing 
families for relief being triggered when certain management 
decisions are made, like the Pacific whiting decision?
    Admiral Lautenbacher. I have no philosophical problems with 
that at all. I do not think the laws we have today are, shall 
we say, compatible with some things that make sense in terms of 
balancing the economic realities with a need to conserve and 
rebuild sustainable fisheries, so I have no problem with that 
personally at all.
    Senator Wyden. I pushed very hard for NMFS to do annual 
research on West Coast groundfish; and kicking and screaming at 
the agency is still not doing that. We found that cooperative 
research funding in that area had been zeroed out as well. How 
is the administration going to address fisheries research, and 
particularly the need for increased stock assessments, and 
cooperative research on the West Coast and in Oregon?
    Admiral Lautenbacher. We have added $10 million to the 
budget for stock assessments, and that is included. A portion, 
$1\1/2\ million, roughly, that will be devoted to using the 
latest technologies and improving the methods by which we do 
stock assessments and bringing in technology, so while there is 
not an individual piece, there are places in the budget where 
this research will continue at the levels that seem to be 
affordable at this point.
    Senator Wyden. I am also concerned about the agency's work 
in the bycatch area, and NMFS lost in Federal court in its 
protection of the bottom fish. Tell us how you are going to go 
about addressing this piece of the groundfish management 
crisis.
    Admiral Lautenbacher. In bycatch I think we have made a 
number of improvements. Since we talked last we have at least a 
voluntary program in place for bycatch which allows the bycatch 
for ships that wish to have observers on board for that bycatch 
to be donated either to the poor or to other causes, and not 
being wasted and thrown back into the sea, so that is progress 
in the right direction.
    We have also--when you look at bycatch in general across 
the entire industry, there have been a number of improvements 
over the last 5 or 6 years that are important. We continue to 
keep doing that. For instance, in the shrimping industry, 
bycatch has been reduced from a ratio of about 10 to 1 to 4 to 
1, based on the turtle exclusion device development and the 
ability to put that into broad use in those fisheries.
    The tuna fishery, of course, has had great success in 
reducing the incidental take of dolphins. That used to be in 
the hundreds of thousands 10 years ago. It is now less than 
2,000 a year, so there has been incredible gains in some of 
these industries, certainly in the Atlantic billfish area. By a 
combination of closures and gear devices we are able to reduce 
the bycatch by 30 to 40 percent, and the landings have been 
maintained at the same level, so there are areas that are 
encouraging, and we need to do more, and I assure you that it 
has my attention, and we are looking at ways to improve it.
    Senator Wyden. The Ranking Member of the Oceans, 
Atmosphere, and Fisheries Subcommittee, Senator Snowe, has 
joined us. She has done good work in this area for years, and I 
think what I will do is ask you a couple of other questions 
that are important to my State for this first round of 
questioning, Vice Admiral Lautenbacher, and then, after I have 
addressed those Oregon issues, I am going to recognize Senator 
Snowe, and then in the second round I'll ask you some questions 
with respect to programs that are important nationally to 
finish up on the Oregon questions.
    As you know, there has been great unhappiness about the 
whiting decision that essentially blind-sided fishing families. 
The law requires NMFS to consider economic impact on fishing 
communities in making these management decisions, but neither I 
nor, certainly, these fishing communities in my State that I 
represent can understand how the agency's decision took 
economic impact into account. Does the administration support 
considering economic impact on fishing communities when making 
management decisions and, if so, what specifically can you 
point to that demonstrates this?
    Admiral Lautenbacher. I certainly support it, and when you 
look at the economic impact you have to look at the long-term 
economic impact. If there is no fishery in the future, that 
will be a horrendous economic impact, and so if you do not take 
the actions that the law requires now, there will be no fishery 
and there will be no economy, therefore it is a full-term 
picture that has to be looked at, and we do consider that.
    Senator Wyden. And how did you do that in this case?
    Admiral Lautenbacher. We believe the fishery was in danger, 
and this was the right level of stocks to preserve for the 
future of that fishery if you are going to make it sustainable, 
or for it to remain sustainable.
    Senator Wyden. Can you supply to me, then, the evidence 
that demonstrates that you took into consideration economic 
impact?
    Admiral Lautenbacher. We will provide you with whatever you 
would like, sir.
    Senator Wyden. I would like just what I asked for. I would 
like the information that demonstrates that you took into 
consideration the economic impact on the fishing families. Is 
that what you will supply?
    Admiral Lautenbacher. I will try to supply that. I do not 
know that I have seen exactly the question as you have posed 
it. That data, if it exists, I will bring it in. If it does 
not, I will also inform you.*
---------------------------------------------------------------------------
    * The information referred to is contained in the Appendix.
---------------------------------------------------------------------------
    Senator Wyden. One other question. With regard to Oregon, 
the release of the draft environmental impact opinion by the 
National Marine Fisheries Service from 2002 to 2012, for the 
Klamath project operation, has again been delayed. This 
biological opinion is going to determine the effects of 
projects operation on Klamath River coho salmon. Can you say to 
the Committee why this biological opinion has been delayed?
    Admiral Lautenbacher. Well, we were on a very aggressive 
schedule to begin with, so I do not view when it is delayed 
that it is a delay that probably could be foreseen. We are 
trying to get all of this finished so that this year's season, 
both for the farmers and the endangered species, would be taken 
care of as soon as possible.
    Right now, we are in discussions with the Bureau of 
Reclamation to ensure that we understand their proposal, and 
that our biological opinion takes into account exactly their 
proposed method of operating in the Klamath River Valley, and 
so I think we are very close to finishing that draft opinion, 
and it should be out within a couple of weeks, a week, perhaps.
    Senator Wyden. Let me recognize Senator Snowe, who has done 
so much good work on these issues over so many years.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman. I am delighted to 
be here this morning. I want to welcome Admiral Lautenbacher. 
It is wonderful to have you here, because I know this is your 
first hearing since your confirmation as Administrator of NOAA. 
We are delighted, given your expertise and experience and 
managerial abilities, to have you here today. We know you will 
be tremendous in addressing many of the challenges your agency 
faces. NOAA certainly has far-reaching and wide-ranging 
responsibilities and obligations. We are very pleased that you 
are here today to address some of these issues.
    Let me first mention the New England groundfish litigation, 
which is an issue that has significantly affected the fishing 
industry in Maine. This court decision is compounded by all of 
the uncertainty, unpredictability, and instability that has 
occurred in the industry in recent times. I am most concerned 
with the decision that was recently rendered by the D.C. 
circuit court last week. What do you envision NOAA will provide 
in terms of assistance to the industry in the aftermath of this 
decision?
    Obviously, the reaction from the fishing industry in my 
state has been very negative. Rightfully so, due to the direct 
consequences the decision will have on the industry--
particularly when you are talking about reducing the number of 
days at sea by at least 20 percent and it is now based on their 
average over the last 5 years of fishing. For some people this 
is going to be extremely onerous.
    I know the decision could have been far worse in terms of 
rendering quotas, but nevertheless, this is going to have a 
serious impact on the groundfish industry throughout New 
England. Do you expect NOAA will provide any assistance, or 
could NOAA provide any assistance to minimize the burden that 
is going to be felt by the fishing industry as a result of this 
decision?
    Admiral Lautenbacher. As we were discussing a little 
earlier, there is no specific dollars in our budget that allows 
for that type of thing at this point. There are provisions, if 
the State requests it, to declare the fishery a disaster, which 
has been done, I do not know, 16 times or something over the 
last 5 or 6 years, and then provisions for special assistance 
to be made available, with the agreement of the administration 
and Congress. There is nothing special in the budget at this 
point for the New England groundfishery, based upon this last 
issue we have had with the court.
    I will say, we are appealing the court's decision, because 
we had an agreement between a large majority of the parties 
that were subject to this, the rulings, both environmentalists 
and sport fishermen, and the fishing industry, and so it was 
very disappointing to us to not get a ruling from the judge 
that would allow fishing to continue based on the agreement we 
all had. We will appeal that, obviously we will appeal that 
judgment. It is our belief the judge went beyond her powers in 
the orders that were delivered, and so we will work on that, so 
that is the nearest relief that I can offer at this point.
    Senator Snowe. Were you surprised by the additional 
regulations imposed by the judge in this decision?
    Admiral Lautenbacher. Well, I guess--surprised? Maybe not 
surprised. I was hopeful that this would not happen. I guess I 
was not surprised, in a sense based on the original ruling that 
was made, which I did not agree with, necessarily. I was hoping 
that all the good work that went on, and the fact that she 
encouraged the mediation and the discussions that have taken 
place--and a great deal of effort had gone into this both from 
the good folks in the Northeast as well as NMFS to try to bring 
it to a conclusion successfully. That was very disappointing. I 
will say disappointing, more than surprising.
    Senator Snowe. Obviously, this has far-reaching 
consequences for the groundfish industry and the fishermen are 
going to be suspended in a state of uncertainty for the 
duration of the ruling. In the meantime, I understand they are 
going to have to respond to this decision. How long is it going 
to take for the appeals process?
    Admiral Lautenbacher. It will probably take a while, and 
that is right, it does ruin the start of the fishing season. We 
are trying to put out an emergency rule within 10 days or so of 
the amount of time it takes us to do the paperwork, and then by 
1 August to abide by the court decision to put a permanent rule 
in place, in the meantime appealing it, and so that is the game 
plan, and you are right, it could take a while, and it could 
foul up part of this fishing season for certain.
    Senator Snowe. One of the major concerns that I have had 
over the last few years is that, unfortunately, we are 
governing the fishing industry by litigation. I know I have 
raised this concern with NMFS and I will have the opportunity 
next week to talk to Dr. Hogarth about this. NMFS has routinely 
acted out of fear of potential litigation rather than being 
proactive and designing plans and programs for the industry.
    We have court-based litigation that is governing the 
industry, which makes it extremely difficult for the people in 
this industry. I have seen the hardship in my state first-hand. 
They are constantly reeling from one decision to the next, each 
one of which is more onerous than the regulations or plans that 
were implemented by NMFS in response to potential litigation. I 
do not think that is the way we ought to be governing our 
industry and I do believe we have to be much more aggressive in 
designing plans and programs for the industry, so that we can 
preempt any potential for the type of litigation and the types 
of decisions that were rendered by the court last week.
    Admiral Lautenbacher. I agree with that, and I would like 
not to manage by litigation. I think--well, in this budget we 
are asking for some more money to help us with the 
environmental assessments and some of the things we have done 
wrong in our procedure.
    We have been attacked on some procedural issues which we 
are gradually closing the loopholes to. We are being attacked 
on different issues now, which are at least working down into 
something substantive, and I believe the best thing is to make 
rulings up-front that are in accordance with the law, done up-
front, done with consultation with everyone, and do it without 
this fear of retribution and waiting until the last minute, and 
that has taken place in the past. I am trying to reverse that.
    Part of it is, as to Senator Wyden's question on the 
whiting, we have tried to get ahead of that, not as well as we 
should, but at least it was a ruling that came out that is in a 
position that will not be sued, we will not be sued on that 
particular ruling. We need to get to the point where we can do 
that with all the fisheries management councils.
    Plans come in late to us, and sometimes they are not in 
compliance. In the past, people have been shy about saying they 
are not in compliance, this is not going to work, and if we do 
not change it to match the law, then we are all out of business 
for a while, so I would like to get ahead of this. We have 
asked for some more money in our budget to help with stock 
assessments, to help with some of the admin procedures to make 
this work better, and I would appreciate support in that area.
    Senator Snowe. Most definitely.
    What is NOAA doing to gain a better understanding of the 
socioeconomic impact on the communities and the industry? Will 
you be taking any steps to better evaluate what the direct 
effect is going to be and the consequences as a result of this 
decision? I think it is important, irrespective of what happens 
in the appeals process, to understand exactly what the 
socioeconomic effects are going to be. This requirement was 
included in the Magnuson-Stevens reauthorization a few years 
ago to ensure that we ascertain the impact on the community.
    Admiral Lautenbacher. Agree. There is $4 million in this 
budget that is specifically directed at increasing our staff, 
our expertise in the socioeconomic impact of the rules and 
regulations under which we have to deliver and work with, so I 
am pushing in that direction and, with those extra resources, 
that will certainly help. More is needed.
    As I said earlier, I am a fan of trying to balance the 
economic and conservation interests that we have and it needs 
to be done better than it has in the past, so I will try to 
push to make that happen.
    Senator Snowe. I appreciate that, and these issues are not 
mutually exclusive. Unfortunately, people see one without the 
other, and I do not think we can divorce those issues as we 
consider the whole picture for the fishing industry and for the 
communities involved. I think we can do both.
    And finally, I would encourage an examination of the entire 
issue of science-based management. Another concern that I have 
had over the years is the failure of the agencies to invest in 
the kind of cooperative research that is needed to gain a 
better understanding of exactly what the problems are with 
ecosystems and with the fisheries. I think if we did more in 
that regard, the industry would have better confidence in the 
ultimate decisions that are made with respect to the stocks of 
the particular fisheries.
    We do not do enough, and as a result of that insufficient 
investment, it really has imposed a hardship to the industry. 
Rightfully they are saying how do we know? Where is this 
information coming from? On what basis are you making this 
decision? They have to reorient their entire livelihood to 
respond to decisions that are not based on science and are not 
based on data.
    I encourage you to do everything that you can in your 
leadership position to invest in the kind of science-based 
research that will lead to making the best decisions, the most 
effective decisions that will yield the best results for the 
industry and for the fish stocks.
    Admiral Lautenbacher. I understand, and I agree completely. 
I am certainly dedicated to doing as you suggest.
    Senator Snowe. Thank you. Thank you, Mr. Chairman.
    [The prepared statement of Senator Snowe follows:]

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine

    I'd like to thank the Chair for scheduling this very important 
hearing on NOAA's FY 2003 budget and programs.
    I want to welcome you, Admiral Lautenbacher, to what I believe is 
your first hearing before our Committee since your confirmation. You 
came to NOAA with solid scientific credentials and extensive management 
and leadership skills--all of which made you the perfect candidate for 
what I believe is an incredibly important job. I know you are just 
getting started, but I think this is an ideal time for us to talk to 
you about the NOAA budget request and all of your many programs.
    NOAA is a broad-ranging agency which the people of Maine depend on 
each and every day. In so many ways, your agency has a direct effect on 
their lives. In Maine we count on NOAA for everything from providing 
reliable weather predictions to scientifically-based fisheries 
management to coastal zone management to better understanding global 
climate change.
    Of course, these needs are not unique to Maine. More than half of 
our country's population lives on the 10 percent of our land designated 
as the coastal zone. Our coastal population grows every year, placing 
increasing strains on coastal resources and our marine ecosystem. Our 
nation is facing unprecedented challenges in managing these resources, 
and we look to NOAA to take the lead in this management. And as you 
know you have a great many challenges.
    Right now in Maine we are faced with a crisis in which groundfish 
litigation could potentially and permanently change the coastal 
communities and their way of life. This is an example of litigation-
based management at its absolute worst. We need to take fisheries 
management out of the courts and instead use better and more 
comprehensive science. This will enable us to create sustainable 
fisheries management plans that are in compliance with the law and 
allow our fishermen to continue to earn an honest living.
    I look forward to working with you and Dr. Hogarth in reversing 
this destructive trend. I understand that Dr. Hogarth is your point man 
for fisheries issues and I look forward to discussing these issues with 
him next week at our fisheries management hearing.
    As I said we have to ensure that science is the backbone of all of 
our decisions. Cooperative research is one area that I believe we can 
bring scientists and fisherman together to produce the science we need 
to better understand and manage our marine resources. I can't emphasize 
more the importance of cooperative research.
    I also believe that we need to move forward to a global ocean 
observing system which will provide us with critical environmental data 
that will be utilized to improve fisheries modeling and management, 
coastal planning, and harmful algal blooms management and mitigation.
    In conjunction with this, I plan to introduce my Harmful Algal 
Bloom and Hypoxia Research and Control Act reauthorization bill soon 
and I look forward to working with you as we continue this extremely 
important program. It is clear that this problem is not going away as 
algal blooms are still prevalent and the dead zone still occurs each 
summer off the Louisiana coast. We need to better understand what 
causes these phenomena and how we can better control and eliminate 
them.
    My questions and concerns today focus on a small subset of NOAA's 
overall responsibilities. You know that many of my natural resource 
concerns focus on fisheries. Rest assured that I will be diving into 
these issues with Dr. Hogarth next week, when we are holding a hearing 
on fisheries management. Today I will address overall budget issues, 
NOAA performance, and several programs that matter a great deal to 
Maine and the rest of the country.
    We are all here because we are concerned about NOAA's ability to 
succeed in an increasingly complex world. Now more than ever, NOAA 
needs to be a leader in science-based management, and we all know that 
adequate budgets are a key component of this success.
    Thank you for appearing here today, Admiral Lautenbacher. I have 
enjoyed working with you in the past and I appreciate your ability to 
provide leadership and insight on the inner workings of NOAA. I have 
great confidence in your ability to help us better understand how 
NOAA's budget affects its ability to meet its missions.
    I thank the Chair again for holding this hearing and I look forward 
to hearing from you, Admiral Lautenbacher.

    Senator Wyden. I thank my colleague for all of her good 
work on these issues over so many years.
    Let me turn to some concerns the Committee has with respect 
to the budget for the country, and some programs that we do 
feel strongly about, and I will start with the national sea 
grant college program. The applied nature of national sea grant 
research and the success of extension services are just two 
aspects that cannot be underestimated. We are proud of their 
use in Oregon and certainly around the country.
    The President's budget proposes to terminate this program 
within NOAA and the Department of Commerce. With all the 
positive feedback about sea grant, what are the 
administration's reasons for moving the sea grant program, 
particularly in light of losing vital pieces of sea grant, such 
as the extension services and the applied research aspect?
    Admiral Lautenbacher. The administration took a look at 
this, and they believe that managing a program such as this, 
which includes a great deal of basic research, would be most 
efficiently managed if it were included in a large-scale four-
star effort such as the National Science Foundation, where they 
manage peer-reviewed research very well and get good grades 
from everyone that has looked at their program.
    The efficiency of bringing it into that management scheme 
and into a peer review process, et cetera, was considered to be 
an advantage to this program. Also, it would reduce the 
matching requirement, which would allow the States to not have 
to contribute as much money to the program, but it would 
continue to maintain its character in the sense that the sea 
grant areas, sea grant officers could maintain their 
certification.
    We also from NOAA would work with the National Science 
Foundation to ensure that the essential pieces of the program 
would continue as much as possible, given that there would be a 
shift from the NOAA organization to the National Science 
Foundation. For my part, I assure you that we think sea grant 
is an outstanding program. It has produced great results over 
the years in both education and outreach, or extension, as well 
as basic research. I will manage it with those same high ideals 
in mind and do my best to ensure that the turnover is done 
smoothly.
    Senator Wyden. The Mitchell Act hatchery and mass marking 
program has consistently been underfunded, and this has 
resulted in the inability of hatchery managers to mass-mark the 
fish, as well as in the closure of hatcheries. Why has the 
administration not allowed the Mitchell Act hatchery and mass-
mark program to function at the level that was intended by the 
Congress?
    Admiral Lautenbacher. I do not have any detailed 
information on that. I would like to take it for the record and 
provide it to you, Senator.
    [The information referred to follows:]

    Question. Why has the administration not allowed the Mitchell Act 
hatchery and mass-marketing program to function at the level that was 
intended by the Congress?
    Answer. NOAA's FY 2003 request for Mitchell Act hatcheries is $16.5 
million. The Mitchell Act funding level set by Congress in 
appropriations has been used exclusively for Columbia River hatchery 
operations and maintenance, screens and, in recent years, mass marking 
to allow recreational and commercial access to hatchery fish when they 
occur in fisheries with ESA listed salmonids. NMFS will continue to 
fund Columbia River hatcheries at the funding level appropriated by 
Congress.

    Senator Wyden. That will be fine. I want to go into some 
detail with respect to the Clear Skies program, the Clear Skies 
and Global Climate Change Initiative program, and frankly your 
answers are important here, since it is our understanding that 
the U.S. interagency Global Change Research Program has been 
placed under your watch in the new Climate Change Science 
Program Office to be headed by James Mahoney, your Assistant 
Secretary for Oceans and Atmosphere. Is that correct?
    Admiral Lautenbacher. That is correct.
    Senator Wyden. OK. Now, let me turn to your testimony, if I 
could, and I am going to be working from--I guess you do not 
number your pages, but I am going to go to the second page of 
your Climate Services testimony under Climate Change Research 
Initiative and begin by asking you this. You state in the 
second paragraph there, the Clear Skies plan aims to cut power 
plant emissions of three pollutants, nitrogen oxide, sulfur 
dioxide, and mercury, by 70 percent. What about carbon?
    Admiral Lautenbacher. Carbon is included in the greenhouse 
gas intensity. It is included in the next line, which says 18 
percent reduction of intensity, meaning the percentage of 
pollutants over the gross domestic product, so that as the 
gross domestic product increases, you reduce the amount of 
carbon in the air, and that is an 18-percent figure over the 
next decade, so carbon is included in that 18 percent number.
    Senator Wyden. All right. The next sentence says, the new 
Global Climate Change Initiative seeks to reduce greenhouse gas 
intensity by 18 percent over the next decade. The international 
call is far greater than 18 percent, so my question is, how 
does this country really hold our head up here, saying we ought 
to have an 18-percent reduction on only three pollutants?
    Admiral Lautenbacher. That is 18 percent, including the 
carbon dioxide, so you have to have that in. I am not the 
inventor of this calculation, but let me explain what I know 
about it. This comes from CEQ and from the Department of 
Energy, but when we looked at, or when I looked at the figures, 
this 18 percent goes out 10 years, and if you look at the 
production, or the projection, rather, of our gross domestic 
product increase, and you look at the reduction in the 
pollution in the air, greenhouse gases, when you get to the end 
of the 10-year period you are actually better off than you are 
under the Kyoto treaty.
    Some people will say that the front end is not the same, 
but it is close, but over the 10-year period we actually do 
better than the Kyoto treaty does.
    Senator Wyden. I will tell you that my sense is, is that 
your approach means that emissions could actually increase as 
GDP rises, is that right?
    Admiral Lautenbacher. But the intensity, the percentage 
will go down as a function of the economy, and when you look at 
the total, by the time you get there you are going to be less 
than the Kyoto protocol.
    Senator Wyden. Wouldn't the Clear Skies Initiative weaken 
and delay reductions on sulfur dioxide, nitrogen oxides, and 
mercury emissions from power plants?
    Admiral Lautenbacher. I do not believe it would, but then 
again, I am not the expert. I am here to testify to the science 
that tells you how we make predictions. I am not the author of 
these figures or the regulations, so I do not want to pretend 
to sit here and be the administration source on these numbers, 
or the logic that goes behind these particular numbers.
    Senator Wyden. I think what we want is the science behind 
the numbers. I do not think there is science to back up the 
numbers, and since you all are going to be playing an 
increasingly important role in this area, we are just looking 
for the science.
    Admiral Lautenbacher. And the science is, who has created 
the problem? Has man created the problem, or is this the 
natural variability which we cannot--nothing we do will make a 
difference, and I think there is great differences among 
scientists. You can read a number of papers that will tell you 
that it is not a problem, or it is a problem. We need better 
science on which to base these policies.
    What we are trying to do within NOAA and this Climate 
Change Research Initiative is to get to the core science and 
decide what is right, and what is the carbon cycle, where is it 
being sequestered, how much is going into the air, how much of 
it is natural, how much is man-made, and where is it coming 
from, what countries, what particular parts of the world, how 
is it being transported?
    Looking at the water cycle, what difference does it make? 
Do you actually have a cooling effect from aerosols? If you put 
more aerosols into the air, you actually reduce the temperature 
of the world.
    There are an awful lot of answers, an awful lot of 
questions on the basic science on which these policies are 
based that need to be answered. That is where our $18 million 
is focused, and that is what the program office for climate 
change will be involved in.
    Senator Wyden. Well, what is your response to those people 
who argue nothing is going to make a real difference here? You 
said people argue that. What do you say in response to that?
    Admiral Lautenbacher. I look at the data that is out there 
and I agree that the global average temperature has been 
increasing, and I think that the bulk of mainline scientists 
that you bring in here will agree to that, so cut out the 
fringes on the side who say it is not increasing, so we 
believe--at least I believe that the global average temperature 
is increasing. It has increased by a small amount, but it has 
done it in a relatively short period of time.
    One can make a correlation with the increase in greenhouse 
gases and say it is due to what man has done to the 
environment. One can also look back at records in history and 
tree rings and ice core samples, and you can see other changes 
that took place many, many years before man showed up on the 
scene burning fossil fuels and putting greenhouse gases into 
the air that have been equally or much more dramatic than what 
we have experienced today, so the issues are to decide and to 
find out what the physical processes involved are, and to see 
how much man is actually affecting them, because that will 
depend a lot on where you want to invest your money.
    Do you want to invest your money in reducing greenhouse 
gases and ruin the economy, and then find out that it makes no 
difference, or do you want to find out that since it is going 
to happen anyway, we should invest our money in mitigation, we 
should invest our money in planning properly, in what we are 
going to do in our coastal zones. What are we going to do in 
our coastal zones? What are we going to do when Minnesota 
becomes the land of 1,000 wadis and not 1,000 lakes? What will 
happen to those regions? We are looking at regional 
assessments. We are looking at the effects of what will happen 
and who caused it.
    Senator Wyden. You say the agency is requesting $2 million 
to augment carbon monitoring capabilities in North America, as 
well as for observations of globally relevant parameters in key 
undersampled oceanic and continental regions around the globe. 
That is, I guess, on page 3 of the climate change area.
    Again, touching on the carbon question, how come the 
President does not have carbon as part of the Clear Skies 
Initiative, but you have got $2 million for carbon monitoring?
    What is so striking about all of this is that at every step 
of the way it just seems that we are missing opportunities, 
opportunities to work with the rest of the world to address 
these key questions that are doing so much about the climate 
problem. You have said that this morning. We are going to have 
money to monitor carbon, but we are not going to make it one of 
the pollutants we really seek to do something about.
    Admiral Lautenbacher. That is not true. Well, first of all, 
you should, get another witness here.
    Senator Wyden. It is not one of the areas where you are 
going to cut power plant emissions. You are going to cut power 
plant emissions for nitrogen oxide, sulfur dioxides, and 
mercury. You are not going to do it in the carbon area. That is 
a matter of fact. But you are going to set up, or at least try 
to, to have a program to monitor carbon, which suggests that it 
is kind of a serious problem, so I am trying to sort out the 
consistency in those two positions.
    Admiral Lautenbacher. Goals are going to be set for 
reducing carbon. There is a registry being set up to ensure 
that reporting is done. It is going to be tracked. There are 
going to be goals set. This registry will be set up so there 
will be a provision to allow for trading credits, as has been 
done in the past, and acid rain and other programs that we have 
had, and it is being initiated by some of the States, for that 
matter, right now.
    So you are setting up a system in which people's 
performance, the industry's performance is going to be 
monitored, and how much carbon they are putting in the air, we 
are going to determine how much is in the air, and if we are 
not meeting the goals for reduction, it is 18 percent 
reduction, then we are going to have to have some other 
policies put into place, but the object here is to get 
voluntary reporting and monitoring going as an initial start, 
so it is not that nothing is being done. I think it is a 
prudent way to get started on the program.
    As far as the worldwide business, I just came from the APEC 
conference, and I am a big supporter of global observing 
systems. We do not have enough data on the parameters for the 
world system, oceans, atmosphere, that are going to allow us to 
actually determine what is going on with carbon.
    I received a great deal of support from colleague nations 
around the Pacific Rim to support getting monitoring stations 
in place and joining with the United States in an effort to 
build an observing system so we can give accurate data to the 
policymakers of the world.
    Senator Wyden. I would be curious how you would respond to 
the recent NAS report. You know, this was commissioned by the 
administration. My understanding is that they concluded that 
climate change was occurring and that man-made emissions were 
part of the cause. How does the administration's proposal 
address these concerns and address them in any way that is 
going to get at these problems sometime soon?
    Admiral Lautenbacher. Well, first of all, the 
administration's proposal is to stabilize greenhouse gases. 
They are rising today, and there is not anything you can do, 
short of everybody going to bed for the next 30 years, to stop 
them from rising, so the object is to stop the growth of 
greenhouse gases. It will stop at some point in the future. If 
the President's program is followed, it will stop the rise of 
greenhouse gases, so that is the first thing that has to be 
done, and there is going to be monitoring and controls in 
places, as you have seen on the three gases, and voluntary on 
carbon, so if you stop the rise of the greenhouse gases, it 
gives you a chance. It gives you a breathing period to start 
looking, making sure that the science is correct and that you 
are investing in the right parts of your economy.
    If more drastic measures need to be taken, I am sure they 
will be taken. That is part of the Clear Skies program, is to 
review progress and to revamp the policies if necessary, so 
first of all you have got to stop the rise of greenhouse gases. 
If you follow what is in that program that the President has 
listed, you will stop the rise of greenhouse gases and you will 
do it without destroying the economies, and it is particularly 
important for nations of the world that do not have the money 
to invest, in these types of subsistence economies that do not 
have the money to invest in environmental improvement.
    If you allow them to grow their economies but have some 
sort of a set-aside to assure proper conservation of resources. 
That is a way to keep development going and to use the 
resources and to provide a proper environment for the future. 
That is again the balance between economic development and 
improving the quality of life and conservation of resources.
    Senator Wyden. Let me ask one other question and again cite 
carbon as the area where I want to get a sense of the 
administration's approach; and by the way, everybody is for the 
research. You note that here, and it says something I certainly 
agree with. You want the research to be done so workers and 
citizens in this country are not unfairly penalized, no 
question about that. All of that is very sensible. But I would 
like to get your sense, at what point is the administration 
going to say, we have studied enough here, we are going to take 
some action and support some specific initiatives and start 
with carbon?
    I asked about this at the Energy Committee. I serve on the 
Energy Committee as well, and last year, when the 
administration was being pushed by other countries around the 
world to act on the carbon issue the response was, we are going 
to study it. We are going to look at it. Tell me when you think 
that the administration might say, we have studied this enough, 
we are actually going to propose some concrete actions on 
carbon?
    Admiral Lautenbacher. Well, I guess there is a semantic 
difference here. I believe they have taken action by setting 
into place a system which requires people to register, and a 
reporting system. So there is a reporting system being set up, 
and there is a track of reduction targets that are being looked 
at for the next 12 years, or the next decade, rather, from 2002 
to 2012, and therefore a system is being set up in which there 
will be accountability, there will be targets, and we can all 
look at it, everyone can look at it and say it is working or it 
is not working.
    Senator Wyden. If they are not met, there are no 
consequences, are there? What are the consequences of not doing 
your share? There are none, isn't that correct? Tell me what 
the consequences are if you do not do your share.
    I think your point about reporting and monitoring and the 
like, it is all voluntary. I mean, if you sit it out, if you 
decide you are not going to be part of an effort to be 
responsible, I do not see any consequences because it is 
voluntary. What do you see as the consequences?
    Admiral Lautenbacher. The consequences are economic, 
because as you start to figure out about how to reinvest in the 
next generation of equipment for power plants and energy 
distribution and automobiles, and all the things that create 
the carbon in the atmosphere, you are going to have to make 
some decisions. If the industry continues to make decisions 
that do not meet these targets, they know that there will be 
penalties. Congress will act, the President will act. There 
will be some changes to be made.
    So you are looking at a system which hopefully there will 
be--given the entrepreneurial system we have in the U.S., there 
will be some realization that is going to happen. People will 
invest, and if they do not, they are going to start trading 
carbon credits, just like we do everything else, so you are 
going to be able to see some change in this system so hopefully 
there is some self-discipline that is imposed on the system. 
Now, if it does not work, everybody can see it. It will be 
visible, and then some action should be taken.
    Senator Wyden. Well, the world has already seen it, and 
that is essentially what the debate is about. We are the person 
sitting it out when something like 170 other countries are 
saying--you are saying a voluntary system is going to work, 
that somehow people are going to see these consequences of 
their actions, and I think the country is going to pay dearly 
for a system that really in my view has no consequences. That 
is the bottom line. It is voluntary. If people are 
irresponsible, they will pay no price. There will be no 
consequences.
    Let me also say that I recognize that some of these issues 
go beyond your specific authority, but you play an important 
role, because of what we describe with respect to the new 
Climate Change Science Program Office, and I hope that in your 
capacity there you will be a voice for policies that are going 
to do more than study, they are going to lead to some action 
and some consequences when people are not willing to be 
responsible.
    I support voluntary programs. I think we ought to go with 
them to the greatest extent possible and give them the widest 
possible berth. There is no quarrel there, but when they are 
not getting the job done, then there has to be some 
consequences and some other systems have got to be in place.
    Let me recognize my colleague, if she has any further 
questions.
    Senator Snowe. Thank you. I have just a few questions to 
follow up on the climate change issue so that we can have a 
better understanding of how these programs for the short term 
and the long term are going to be integrated into this office. 
I know the President announced the creation of the Climate 
Change Research Initiative in June and designated the Commerce 
Department to be the lead agency, but given that we have 
declining and static budgets we need to know how the 
investments we will make for the short term and the long term 
will impact climate change.
    The concern of many scientists is, we are doing things on 
the short term from 2 to 5 years, but it is not sufficient in 
helping us better understand the greater global environmental 
issues for the long term. I believe we need to make investments 
in the long term with respect to climate change. What are your 
views on that?
    Admiral Lautenbacher. I agree, we need short term and long 
term. My impression has been, from looking at this, is that the 
investments that have been so far basically in the Global 
Change Research Program (GCRP) area have been mostly long-term 
investments. We have not focused on the short term, and really 
understanding hard-hitting issues right now, and producing 
products that can be used by policymakers to help with some of 
the issues that Senator Wyden and I just discussed, so we 
need--in my view, there has been too much long term, and not 
enough short term, but that being aside, this program office, I 
assure you, will be looking at both. We are very interested in 
being able to contribute immediately and directly to this 
problem, as well as ensuring that there is long-term 
improvements and science plans put into place.
    Senator Snowe. In conjunction with what the chairman 
raised, is the issue of urgency. This is a very compelling 
issue and it was the reason back in 1990 the Congress created 
the Global Change Research Program, essentially because there 
was no success in addressing this issue 12 or 13 years ago. It 
seems to me there has to be a level of urgency and a sense of 
purpose about the entire issue and the far-reaching 
consequences if we fail to address these issues.
    I wonder how the work of the GCRP is going to be 
coordinated with this new initiative and with what we have done 
in the past. We need to make sure that we are not only 
examining these issues, but also proposing steps that can be 
taken to address the issue of global warming and the climate 
changes that have occurred.
    Admiral Lautenbacher. The plan that is in place puts it 
directly on the burden of--Secretary of Commerce Don Evans is 
in charge, directly responsible to the President. It is a 
Cabinet-level group that includes all of the Cabinet agencies 
that are involved, or have any peripheral responsibilities with 
regard to climate change. It has a working group of Deputies, 
and then it has these program offices, one for technology and 
one for science change, of which Jim Mahoney, my Deputy, has 
been put in charge. It will include all of the same offices and 
incorporate the GCRP mechanisms that have been in place for 10 
years.
    And I do not want to be misquoted. I think that program has 
produced a great deal of important work. My only point was, it 
was more long term than it was of an urgent nature. We have 
learned a lot from the GCRP. It has been a good program. I do 
not want to sit up here and say that has been wasted. It has 
not been. It has been a good investment. What we are trying to 
do is take a look beyond the window that was in the GCRP focus.
    That program looked at very specific new initiatives. It 
did not incorporate all of the things that have been done in 
the Government with regard to climate change, and I can give 
you an example just from NOAA, and I will let other agencies 
speak for their own budget.
    We have, for example, $70 million of GCRP money, basically, 
listed as climate change. If I go through my budget and look at 
it, I can find at least $300 million that are related to doing 
climate change kinds of things, or things that will help us to 
understand climate change science and help to build policy 
documents or policymaking instruments. The same thing goes for 
other agencies.
    So the first object of this program office is to get 
everything together that the Government does and put it in one 
place, and let us take a look at the architecture that is 
there. Let us take a look at the gaps that we have in science, 
if there are any, and start prioritizing what needs to be done. 
If we need to move that money into different places, then we 
should do it, and they are Cabinet-level agencies with Cabinet 
members and Secretary Evans in charge, with OMB involved, and 
Dr. Marburger from OSTP. Everyone is on this group. It is a 
high-level body that hopefully will have the empowerment to 
make something happen.
    Senator Snowe. Is every agency that should be involved in 
the issue of climate change included with this sort of task 
force?
    Admiral Lautenbacher. Yes.
    Senator Snowe. Does it replace the Global Change Research 
Program?
    Admiral Lautenbacher. We are going to try to run it in 
parallel right now, because we understand the need to meet the 
needs, or meet the legislative requirements of the GCRP, and so 
right now we have taken the GCRP organization and kind of 
folded it together so that we will not lose any pieces, so the 
GCRP steering group, and the Environment and Natural Resources 
Council, that structure is being matched to the structure I 
just outlined so we ensure we deliver the proper documents to 
Congress.
    Senator Snowe. Will this be coordinated? Who will be 
coordinating the structure?
    Admiral Lautenbacher. It is the same people, so the same 
people that have been doing--the same policy leaders in each of 
these areas that have been working in the GCRP will be in this 
program, the steering part of this program office, so we are 
not going to discard or eliminate or do anything to downplay 
what has been done before. We are going to use it as the base, 
essentially, and broaden the scope. That is the idea.
    Senator Snowe. How much overall would you estimate is being 
spent on the issue of climate change by our Government? Do you 
have any idea?
    Admiral Lautenbacher. Well, the figure that CEQ came up 
with was something like $4.7 billion. That includes the part 
that--the Department of Energy and clean coal and technologies 
for alternative fuels, that sort of thing, and so there is a 
big chunk. Most of that is in energy. There is about $1.7 
billion in the GCRP, and I do not know, but my guess is there 
is at least another billion that is in science areas, maybe 
even more.
    The trouble is, how do you count it, because many of the 
things that we do that are useful for climate change, they are 
also useful for other things, and so do you take the same 
satellite that I use for weather and say, that is climate, too, 
and how much of that satellite money counts into climate, which 
it certainly will, but it is there to give us day-to-day 
weather and to ensure we can carry on our daily economic 
activities.
    So there are a lot of these things that are dual, 
multipurpose, that need to be taken into account. That is the 
hard part about giving you the figure.
    Senator Snowe. So with this new coordinating structure, 
will all of the research be conducted under this umbrella?
    Admiral Lautenbacher. That is the idea. The idea is to have 
a supercoordinating office to make sure that when each budget 
is created, that it is created and it meshes, so when we all 
come to you, or when we go to the President and we come to you 
on the Hill you can look across this and you can see a logical 
program that supports climate change science, and we can 
deliver an architecture, which I can sit here, or Rita Caldwell 
can come up and say, anybody else can come up here and say, 
this is what we are doing, and here is how we fit together. We 
for the first time will have real Government coordination and 
cooperation.
    Senator Snowe. That is going to be positive.
    On another issue related to climate change, that is abrupt 
climate change, the National Academy of Science issued a report 
in December 2001 that said that it is not only possible, but 
likely in the future that we could have an abrupt climate 
change that could have significant societal consequences. In 
fact, the report said, at present there are no plans for 
improving our understanding of the issue, no research 
priorities have been identified, and no policymaking body is 
addressing the many concerns raised by this potential for 
abrupt climate change.
    I have asked for $6 million in the appropriations process 
to address this specific issue regarding climate change. What 
are your views? And how will this be addressed? Is it 
recognized that this is a serious dimension of climate change?
    Admiral Lautenbacher. Certainly I recognize it as a serious 
dimension, and I am sure a number of people will join me on 
that, and in fact, as I wrote a list yesterday of things we 
need to look at, it is on my list for our program office to 
coordinate. Abrupt climate change is of genuine concern, and we 
need to spend some time looking at it, and I assure you that it 
will be on the agenda of this program office.
    Senator Snowe. Let's turn to another area, harmful algal 
blooms. I am soon going to introduce my reauthorization 
legislation with Senator Breaux. I see the administration's 
NOAA budget for 2003 appears to eliminate the funding for all 
types of hypoxia research.
    Admiral Lautenbacher. I will show you--I have it that we 
have roughly about the same amount of money. We may be down a 
little bit, $700,000 left because of the sea grant going to 
NSF, but we have about $13 million, about $13 million in the 
various pieces and there is, as you know, a million here, a 
million there. It is $13 million that deals with harmful algal 
blooms. It is down about $1 million, but it is roughly the same 
across the programs that deal with that.
    Senator Snowe. Do you think it is about $13 million?
    Admiral Lautenbacher. It is about $13 million in this area.
    Senator Snowe. I think this is a critical program.
    Admiral Lautenbacher. It is.
    Senator Snowe. I think that this issue is not going to 
disappear any time soon. When you think about the dead zone 
that occurs every year off the coast of Louisiana and the types 
of mitigation measures that are essential to addressing this 
issue, we certainly should be investing in this issue and not 
terminating it. Is it your understanding that there will be 
static funding?
    Admiral Lautenbacher. $13.8 million was enacted in 2002, 
and our request is $13.1 million, so that is $.7 million down. 
That is the sea grant migration, and so assume that that is in 
there, so we are down about $700,000 on a base of $13.8 
million. I admit, it is a slight decrease, but the programs are 
fairly robustly funded, given the number of priorities we try 
to cover, and I agree this is a very important area, and a lot 
has been done that is important to investigate toxins and 
health and damage to the environment.
    Senator Snowe. We created a task force on this issue in 
1998. Has it been effective in providing any recommendations 
for technical assistance on this issue?
    Admiral Lautenbacher. My view--well, there were four task 
forces created as a result of this. Three of them have 
finished, and have produced, I think, good products that have 
been used to help guide the research efforts and support public 
knowledge of this issue.
    The fourth one will be finished--it is being reviewed in 3 
or 4 months, and it is going to cover coastal oceans' reactions 
to harmful algal blooms, as well as hypoxia and dead zone 
issues in the Gulf of Mexico, so these reports are good, and 
the fourth one is almost done. We have completed that work, 
essentially.
    Senator Snowe. When will that final report be released? I 
ask this because we are in the process of introducing the 
reauthorization bill. Perhaps we would want to wait to 
incorporate any suggestions the reports might provide.
    Admiral Lautenbacher. I will make sure you have copies of 
the reports.
    Senator Snowe. Please provide any suggestions or thoughts 
you might have on the reauthorization as well, because it is 
important.
    Finally, on the national ocean observation system that is 
being developed with hopefully a national plan, how will this 
system be administered? And as you know, there is an observing 
system in the Gulf of Maine that is working very well. It is 
sort of a prototype. Do you envision that this type of program 
will be incorporated into a national observation system?
    Admiral Lautenbacher. My view is that it should be folded 
into a national observation system. We have under the NRLC, the 
National Research Leadership Council, a group called Ocean.US, 
which is a multiagency group kind of at a lower level than the 
climate change group that I talked about, but it includes all 
the agencies that deal with ocean research and ocean 
monitoring.
    They recently had a conference among the Government 
agencies, also including academia, and all the folks that would 
be interested--actually, Gulf of Maine was represented at that 
conference--to build an architecture, and that is the critical 
part. As you know, to build a partnership between two people is 
hard, but to build a partnership between hundreds of people 
gets very difficult, but the attempt is being made.
    Their report is almost ready to be published, and I spoke 
to this group. I think there is a great deal of unanimity that 
we need some kind of a national architecture, and backboned, to 
which the regional observing systems can tie in, data can be 
shared, and we can truly use it for a national purpose both for 
climate as well as a number of other things.
    Senator Snowe. Thank you, Admiral Lautenbacher. I 
appreciate you appearing before us today and answering our 
questions. Thank you, Mr. Chairman.
    Senator Wyden. I thank my colleague, and I think you can 
see, Admiral Lautenbacher, that there is a lot of concern on 
these issues, on the fishing questions, on the climate change 
questions, and what I am hoping for, and I think it is very 
much along the lines of what Senator Snowe is trying to 
address, is we want a new sense of urgency.
    There are a number of these questions that just seem to 
have been passed on from hand to hand, and office to office, 
and what we are hoping is that in a very aggressive way you 
will pull together the people on your team and work with us on 
a bipartisan basis.
    We will have Bill Hogarth here in a few days. I hope that 
Dr. Hogarth is going to talk to us very specifically about what 
is going to be done about a crisis in our fishing sector. 
Senator Snowe, I am sure, is going to have the same sorts of 
questions for him on the global climate change. What I think 
the Congress wants to do is to see a workable bipartisan plan 
that consists of more than study.
    We support your research efforts, but at the end of the day 
we have got to have a chance to move on those, and in area 
after area. We have come up with bipartisan proposals, Senator 
Smith and I, in the groundfish area; Senator Craig and I in 
terms of carbon sequestration--there are bipartisan proposals 
out there that move us beyond the research area, and you can be 
a force for doing that, so that is what we hope we will see.
    I would like to give you the last word. If there is 
anything you want to add, you can feel free to do it at this 
time.
    Admiral Lautenbacher. Thank you, Mr. Chairman. I appreciate 
the opportunity to be here and discuss these issues with you, 
and I am delighted that there is this interest, and I assure 
you that I have the same sense of urgency. To the limits of my 
ability I will certainly work to address these problems. I wish 
to work in a bipartisan manner. I do not think the oceans and 
the atmosphere are the purview of any one particular part of 
our society. I think it is important to all of the entire 
Nation and to everyone that we deal with these problems, and I 
will continue to work with you in the future in any way that I 
can. Thank you very much.
    Senator Wyden. Thank you. We are adjourned.
    [Whereupon, at 11:10 a.m., the Committee adjourned.]

                            A P P E N D I X

      Response to Written Questions Submitted by Hon. Ron Wyden to
                Vice Admiral Conrad C. Lautenbacher, Jr.

    Question. Can you produce information that demonstrates that you 
took into consideration the economic impact on the fishing families?
    Answer. The Pacific Whiting decision was made primarily on the 
basis of the biology of the stock and the requirements of the Magnuson-
Stevens Act (MSA). The MSA gives priority to meeting the biological 
requirements of the stock and preventing overfishing. As required by 
MSA, economic impacts are taken into account, but are not necessarily 
given equal weight to the biology of the stock. Economic considerations 
are most commonly taken into account in weighing different alternative 
actions that might be necessary to meet the biological requirements of 
the MSA, not whether to meet them at all.
    The first document is the March 22 Decision Memo for the Emergency 
Rule to Establish 2002 Harvest Specifications for Pacific Whiting and 
Announcement of Overfished Status of Pacific Whiting. The Finding of No 
Significant Impact and the Environmental Assessment for this rulemaking 
are attached to the Decision Memo. The memo includes a discussion of 
economic impacts (see pages 4-5). Because this was an emergency rule 
where notice and comment was waived, it was exempt from the procedures 
of the Regulatory Flexibility Act.
    The second document is an April 3 memo titled, Alternative 
Estimates of Economic Impact Associated with the Emergency Rule for 
2002 Pacific Whiting Specifications. This memo responds to economic 
concerns expressed by the fishing industry during the public comment 
period at the Pacific Fishery Management Councils' March 2002 meeting.
    The third document is the emergency rule* published in the Federal 
Register on April 15, 2002. The preamble of the rule contains a section 
titled Economic Impacts where the issues are defined and summarized.
---------------------------------------------------------------------------
    * The Environmental Assessment and Regulatory Impact Review for the 
``Emergency Rule for the Pacific Whiting Allowable Biological Catch and 
Optimum Yield Specifications for the 2002 Pacific Coast Groundfish 
Fishery'' has been retained in Committee files.
---------------------------------------------------------------------------
                                 ______
                                 
 Memorandum for William T. Hogarth, Ph.D., Assistant Administrator for 
Fisheries, from D. Robert Lohn, Regional Administrator, National Marine 
                   Fisheries Service--March 22, 2002

Emergency Rule to Establish 2002 Harvest Specifications for Pacific 
        Whiting and Announcement of Overfished Status of Pacific 
        Whiting
    I request your approval of an emergency action under authority of 
section 305(c) of the Magnuson-Stevens Fishery Conservation and 
Management Act. The Pacific Fishery Management Council (Council) 
requests emergency action under the Pacific Coast Groundfish Fishery 
Management Plan (FMP) to establish 2002 harvest specifications for 
Pacific whiting (whiting) before the start of the primary season on 
April 1, 2002. For reasons explained below, the Council's action on 
2002 annual specifications for whiting were delayed until its March 
2002 meeting. The harvest specifications adopted for 2001, which remain 
in effect until new specifications are adopted, must be replaced to 
prevent overfishing of the whiting stock during 2002.
    This action has controversial aspects since it rejects the 
Council's recommended alternative for U.S. harvest of whiting of 
152,400 mt and instead implements a lower harvest level of 129,600 mt. 
Industry participants have expressed concern about the economic impacts 
of the reductions in harvest. The environmental community is likely to 
be concerned about the low biomass levels and how quickly the stock 
will be restored to a sustainable level. In addition, the March 5, 
2002, Ninth Circuit Court of Appeals opinion in Midwater Trawlers 
Cooperative v. Department of Commerce, which is a challenge to Indian 
treaty fishing rights by the fishing industry, could result in 
complaints about the allocation of whiting between the tribal and non-
tribal sectors of the fishery.

Background
    The FMP requires the Council to develop management specifications 
for groundfish species or species groups that it proposes to manage, 
each calendar year. The 2002 Pacific Coast groundfish fishery 
specifications and management measures for all managed species, except 
whiting were published in the Federal Register March 7, 2002 (67 FR 
10490).
    NMFS and the Council realized that the whiting biomass had 
decreased throughout the l990s. In anticipation of a new stock 
assessment which was to be available in early 2002 and because only a 
small amount of whiting are typically landed under trip limits prior to 
the April 1 start of the primary season, the Council chose to delay its 
final whiting recommendation until its March 2002 meeting. As a result 
of this decision, whiting harvest specifications from 2001 were carried 
over into 2002 and remain in place until new specifications are 
established through a federal rulemaking.
    In late February, the new assessment was complete and made 
available for examination by the Council's groundfish assessment review 
team (STAR) for whiting. As a result of the new whiting stock 
assessment, it has been determined that the stock biomass in 2001 was 
0.7 million mt, and that the female spawning biomass was less than 20 
percent of the unfished biomass. Because the overfished threshold under 
the FMP is 25 percent of the unfished biomass, the whiting stock was 
determined to be overfished in 2001 and 2002.
    Although a large amount of juvenile fish, spawned in 1999, are 
expected to mature and enter the fishery in the near future, the 
spawning biomass is not expected to increase above 40 percent of its 
unfished biomass level (B40%-the MSY biomass level) for several years. 
Any increases in biomass will depend on the vigor of juvenile fish that 
mature and enter the fishery as well as the exploitation rates.
    At its March 2002 meeting in Sacramento, CA, the Council reviewed 
the results of the new stock assessment. The Council was presented with 
a range of coastwide harvest levels based on three alternative harvest 
rates and three different assumptions about the amount (recruitment 
level) of juvenile fish that are expected to become part of the 
exploitable biomass in 2002. The three recruitment assumptions included 
a low recruitment of 2.11 billion fish (10 percent probability), a 
medium recruitment of 2.89 billion fish (80 percent probability), and a 
high recruitment of 3.87 billion fish (10 percent probability). At the 
time of the 2001 survey, the fish spawned in 1999 had only partially 
recruited to the fishery and were not well estimated by the model 
resulting in uncertainty about the effect these young fish would have 
on the exploitable stock biomass. As fish spawned in 1999 mature, the 
whiting biomass is expected to increase in size under each of the three 
recruitment assumptions. At the low recruitment level the biomass is 
projected to increase to between 25 percent and 28 percent of its 
unfished condition by 2003, for the range of 2002 harvest levels 
examined. At the high recruitment level the biomass is projected to 
increase to between 38 percent and 42 percent of its unfished level by 
2003, using the same range of 2002 harvest amounts.
    These three recruitment level assumptions represent different 
degrees of risk in characterizing the amount of juvenile fish entering 
the fishery. A low recruitment assumption is most precautionary and 
represents a risk adverse approach, the medium recruitment is risk 
neutral, and the high recruitment assumption carries more risk for a 
timely stock recovery. The Council's Scientific and Statistical 
Committee (SSC) chose to forward all three recruitment assumptions to 
the Council, while noting that the medium recruitment assumption was 
the risk neutral characterization of the incoming recruits to the 
fishery.
    The three harvest rate proxies forwarded to the Council were F40%, 
F45% and F50%. A rate of F40% can be explained as that which reduces 
spawning potential per female to 40 percent of what it would have been 
under natural conditions (if there were no mortality due to fishing) 
and is therefore a more aggressive harvest strategy than F45% or F50%. 
The OYs presented to the Council were based on the ABC associated with 
a particular recruitment level and harvest rate as reduced by the 40/10 
default harvest policy. When a stock is below B40%, the 40/10 policy is 
applied as a precautionary measure and is effectively a default 
rebuilding policy.
    The allocation of the whiting resources between the U.S. and Canada 
is not resolved. The stock assessment was a collaborative effort 
between the two nations. However, the results of the new stock 
assessment were not available in time to hold formal negotiations with 
Canada before the March Council meeting. Consequently, the Council 
assumed continuation of the 80 percent share that the U.S. harvest 
levels have been set at in recent years. NMFS believes that the F40 
harvest rate with a medium recruitment assumption and a 40/10 harvest 
policy approach shows adequate precaution. The Council recommended that 
the future whiting negotiations between the U.S. and Canada be 
scheduled.
    Following discussion and public testimony, the Council recommended 
adopting a U.S.-Canada Coastwide OY of 190,500 with a U.S. OY of 
152,400 mt (80 percent of the coastwide OY) based on a harvest rate of 
F40% and assuming a medium-high recruitment scenario. I advise 
disapproving the Council's recommendation and recommend approving an 
ABC based on the risk neutral medium recruitment scenario. After 
consultation with the Northwest Fisheries Science Center, I believe 
that the risk neutral medium recruitment scenario, instead of the 
Council's risk accepting recommendation, is supported by the best 
available science. This would result in a U.S.-Canada ABC of 208,000 mt 
and a U.S. ABC of 166,000 mt. The U.S.-Canada Coastwide OY (the ABC 
with the application of the 40/10 harvest policy) would be 162,000 mt 
with a U.S. OY of 129,600 mt.
    I believe, that a risk neutral approach, instead of one that 
accepts greater risk, is supported by the best available science given 
the current biomass estimate and the uncertainty associated with the 
estimates of recent year class strength. The 2002 retrospective 
analysis of recruitment estimates from the 1998 assessment resulted in 
recruitment strengths and biomass estimates being revised downward. 
This suggests that future stock assessments also have a reasonable 
expectation of revising the estimated strength of the 1999 year class 
to a lower value. It should be noted that the two most recent year 
classes prior to the 1998 assessment (at an age equivalent to the 1999 
year class in the new assessment) were estimated to be about 40 percent 
lower in the 2002 assessment than in the 1998 assessment. Relative to 
the medium-high recruitment scenario recommended by the Council, the 
2002 stock assessment results suggest that a lower 1999 recruitment is 
two to three times more likely than a higher 1999 recruitment. The STAR 
Panel recognized the high variance associated with forecasting 
recruitment and suggested caution in using the projections for 
forecasting future biomass levels.. The Council's choice to use a 1999 
year class estimate midway between the medium and high estimates is 
inconsistent with the STAR Panel recommendation.
    The F40% harvest proxy should remain in place for 2002. The 
Council's STAR panel recommended moving to a more conservative level of 
F45%. The SSC did not make the same recommendation, but noted that the 
STAR panel recommendation was a risk-adverse policy and not risk-
neutral advise. The SSC identified the F40% rate as reflecting a risk 
neutral policy. While the F45% is by definition more conservative than 
the F40%, neither the STAR or SSC were presented with an analysis to 
evaluate the suitability of the F45% harvest rate proxy. Such an 
analysis was beyond the scope of the assessment. An evaluation of the 
harvest rate proxies for whiting should be completed before setting the 
2003 harvest level.
    Projections indicate that if mean levels of recruitment occurred 
annually, an F40% harvest policy adjusted by the 40/10 rule, would 
rebuild the spawning stock to B40% within seven to nine years (2009-
2011). However, it must be noted that given the highly skewed nature of 
the historical recruitment distribution, there is less than a 50% 
likelihood that annual recruitments would average the long-term mean 
during this short period.
    The U.S. OY recommended by the Council (152,400 mt) represents a 20 
percent reduction from the 2001 whiting OY, while the OY which I am 
recommending adopting (129,600 mt)represents a 32 percent reduction 
from the 2001 whiting OY. In 2001, the ex-vessel value of whiting taken 
by all sectors was estimated to be approximately $13,415,000. Under the 
OY being adopted by NMFS (129,600 mt) the ex-vessel value of whiting is 
expected to be approximately $10,000,000, this is 25 percent less than 
the ex-vessel value in 2001. Reduced revenues from production will 
likely affect the ability of operations to not only cover their 
variable costs, but also their fixed costs. If it is not economically 
feasible for some shore-based or at-sea processors to participate in 
the fishery, the financial impacts of the reduction may be distributed 
disproportionately among recent participants. In the short term, the 
reduced OY is expected to have an adverse economic impact on harvesters 
and processors, however I believe it is necessary for the long-term 
health of the fishery.
    Concerns about the impacts on other groundfish fisheries were 
considered. Participants in the shore-based whiting fleet have 
accounted for roughly 50 percent of the annual harvest of species in 
the Dover sole, thornyhead, and sablefish (DTS) species complex as well 
as at least 20 percent of the non-Dover sole flatfish species. Many 
whiting vessels target flatfish and DTS species after the whiting 
season. It is expected that the length of the whiting season would be 
reduced proportionally with the OY. Therefore, a drastically reduced OY 
would likely result in a shorter whiting season and increased fishing 
pressure on already constrained fisheries, this would result in higher 
than expected landings, inseason non-whiting reductions in trip limits, 
and possibly early closures.
    Each year, the whiting OY is allocated between the specific sectors 
of the fishery. The Pacific Coast Indian treaty fishing rights, 
described at 50 CFR 660.324, allow for the allocation of fish to the 
tribes through the annual specification and management process.
    Beginning in 1999, NMFS has set the tribal allocation according to 
an abundance-based sliding scale allocation method proposed by the 
Makah Tribe in 1998. See, 64 F.R. 27928, 27929 (May 29, 1999); 65 FR 
221, 247 (January 4, 2000) ; 66 FR 2338, 2370 (January 11, 2001) Under 
the sliding scale allocation method, the tribal allocation varies in 
relation to the level of the U.S. whiting OY, ranging from a low of 14 
percent (or less) of the U.S. OY at OY levels above 250,000 mt, to a 
high of 17.5 percent of the U.S. OY at an OY level at or below 145,000 
mt. For 2002, the Makah Tribe has requested, and the Pacific Council 
has recommended, a tribal allocation of 22,680 mt, using the sliding 
scale allocation method. No other tribes have requested allocations for 
2002.
    The sliding scale allocation method is the subject of two recent 
court decisions. In the treaty fishing rights case of U.S. v. 
Washington, Case No. C70-92l3, Phase I, sub-proceeding No. 96-2 (W.D. 
Wash., April 5, 2001), the Court considered several scientific 
affidavits submitted by NMFS and the Makah Tribe, and found that ``the 
allocation agreed on by the Secretary is a lawful exercise of his 
obligation to comply with the treaties guaranteeing Indian tribes their 
aboriginal right to take fish at their usual and accustomed fishing 
grounds.'' 143 F. Supp. 2d 1218, at 1224. The Court concluded: ``The 
sliding scale allocation method advocated by the Secretary and Makah 
shall govern the United States aspect of the Pacific whiting fishery 
until the Secretary finds just cause for alteration or abandonment of 
the plan, the parties agree to a permissible alternative, or further 
order issues from this court.'' Id.
    In Midwater Trawlers Cooperative v. U.S. Department of Commerce, 
___F. 3d.___, 2002 WL 338406 (9th Cir. 2002), the Ninth Circuit Court 
of Appeals upheld the tribal treaty right to Pacific whiting, upheld 
the usual and accustomed fishing area of the Makah Tribe, and found 
that the Makah Tribe is entitled, pursuant to the Treaty of Neah Bay, 
``to one-half the harvestable surplus of Pacific whiting that passes 
through its usual and accustomed fishing grounds, or that much of the 
harvestable surplus as is necessary for tribal subsistence, whichever 
is less.'' However, the Court also found that the specific allocation 
in 1999 to the Makah Tribe was inconsistent with the scientific 
principles set forth in the Magnuson-Stevens Act (which requires that 
NMFS base fishery conservation and management measures on the best 
scientific information available), because the 1999 Federal Register 
notice announcing the 1999 allocation did not provide a scientific 
rationale. Accordingly, the Court issued instructions to the District 
Court to remand to the agency for more specific findings. On remand, 
NMFS will be required ``to either promulgate a new allocation 
consistent with the law and based on the best available science, or to 
provide further justification for the current allocation that conforms 
to the requirements of the Magnuson-Stevens Act and the Treaty of Neah 
Bay.''
    The Midwater Trawlers decision was just issued, and the case has 
not yet been formally remanded to the agency by the District Court. 
However, prior to the formal remand, NMFS must announce the 2002 
Pacific whiting allocations. NMFS has reviewed the science contained in 
documents in the administrative record in the Midwater Trawlers case, 
and has also reviewed scientific information submitted by NMFS and the 
Makah Tribe in U.S. v. Washington, Sub- proceeding 96-2. NMFS has no 
additional scientific analysis that alters the existing information on 
the distribution and migration pattern of the stock. Therefore, NMFS is 
relying on the existing information as the best scientific information 
available.
    Based on the information referenced above, NMFS concludes that an 
allocation of 22,680 mt of Pacific whiting to the Makah Tribe in 2002 
is within the tribal treaty right as described by the District Court in 
U.S. v. Washington, Sub-proceeding 96-2, and by the Ninth Circuit in 
the Midwater Trawlers decision. Since this is the amount requested by 
the Tribe, NMFS also concludes that it is sufficient to meet tribal 
subsistence needs for 2002, even though it may be less than the full 
treaty entitlement. NMFS will deal with these issues in more detail in 
its formal response to the Ninth Circuit decision.
    The non-tribal commercial OY for whiting is 106,920 mt (the 129,600 
mt OY minus the 22,680 mt tribal allocation). Regulations at 50 CFR 
660.323(a)(4) divide the commercial OY into separate allocations for 
the non-tribal catcher/processor, mothership, and shore-based sectors 
of the whiting fishery. The catcher/processor sector is composed of 
vessels that harvest and process whiting. The mothership sector is 
composed of motherships and catcher vessels that harvest whiting for 
delivery to motherships. Motherships are vessels that process, but do 
not harvest, whiting. The shoreside sector is composed of vessels that 
harvest whiting for delivery to shoreside processors. Each sector 
receives a portion of the commercial OY, with the catcher/processors 
getting 34 percent (36,353 mt), motherships getting 24 percent (25,661 
mt), and the shore-based sector getting 42 percent (44,906 mt).

Certification
    I certify that this emergency rule is consistent with the national 
standards and other provisions of the Magnuson-Stevens Fishery 
Conservation and Management Act and other applicable laws.
    Determinations supporting this finding are attached.

Recommendation
    I recommend that you approve this emergency action, sign and send 
the decision memorandum to the Under Secretary with the attached 
information memorandum to the Secretary, and sign the attached 
transmittal to the Chief Counsel for Regulation of the Department of 
Commerce.

Determinations
    Appropriateness of Emergency Action: The harvest specifications 
adopted for 2001, which remain in effect until new specifications are 
adopted, must be replaced to prevent overfishing of the whiting stock 
during 2002. This action was delayed until March in order to use the 
latest science which was not available until late February. Because the 
ABC and OY are substantially lower than those adopted for 2001, this 
action is necessary to restrict fishing so the fishery stays within its 
overall harvest allocation while allowing the various sectors of the 
fishery the opportunity to fully harvest their sector's allocation. To 
delay the effectiveness of the rule beyond the start of the fishery 
could result in some sector allocations being exceeded and possible 
early closures for other sectors as a result of excessive harvest in 
the early season.
    Magnuson-Stevens Fishery Conservation and Management Act (Magnuson-
Stevens Act): This rule is necessary to respond to an emergency 
situation and is consistent with the Magnuson-Stevens Act.
    National Environmental Policy Act: An environmental assessment (EA) 
has been prepared that describes the impact on the environment that 
would result from the implementation of this rule. Three different 
assumptions about the amount of juvenile fish that are expected to 
mature and become part of the spawning biomass were put before the 
Council. At the time of the survey, the fish spawned in 1999 had only 
partially recruited to the fishery and were not well estimated by the 
assessment model. Therefore there is uncertainty about the effect these 
young fish have on growth of the spawning stock biomass. Implementing 
the more conservative ABC, based on a harvest rate of F40% with a 
medium recruitment scenario with an OY adjusted by the 40/10, is 
expected to result in substantial impacts to the whiting industry. I 
recommend you find that no significant impact on the human environment 
will result from its implementation.
    Regulatory Flexibility Act (RFA): This rule is exempt from the 
procedures of the RFA, because it is not required to be issued with 
prior notice and opportunity for public comment.
    Coastal Zone Management Act (CZMA): The Council determined that 
this action is consistent to the maximum extent practicable with the 
enforceable policies of the approved coastal management programs of the 
States of Washington, Oregon, and California. This determination was 
submitted for review by the responsible State agencies under section 
307 of the CZMA on December 14, 2001. No response was received from any 
of the states, so consistency is inferred.
    Paperwork Reduction Act (PRA): This action does not contain a 
collection-of-information requirement for purposes of the PRA.
    Endangered Species Act (ESA): NMFS issued Biological Opinions (BOs) 
under the Endangered Species Act on August 10, 1990, November 26, 1991, 
August 28, 1992, September 27, 1993, May 14, 1996, and December 15, 
1999, pertaining to the effects of the groundfish fishery on chinook 
salmon (Puget Sound, Snake River spring/summer, Snake River fall, upper 
Columbia River spring, lower Columbia River, upper Willamette River, 
Sacramento River winter, Central Valley, California coastal), coho 
salmon (Central California coastal, southern Oregon/northern California 
coastal, Oregon coastal), chum salmon (Hood Canal, Columbia River), 
sockeye salmon (Snake River, Ozette Lake), and steelhead (upper, middle 
and lower Columbia River, Snake River Basin, upper Willamette River, 
central California coast, California Central Valley, south-central 
California, northern California, and southern California). NMFS has 
concluded that implementation of the FMP for the pacific Coast 
groundfish fishery is not expected to jeopardize the continued 
existence of any endangered or threatened species under the 
jurisdiction of NMFS, or result in the destruction or adverse 
modification of critical habitat.
    NMFS has re-initiated consultation on the Pacific whiting fishery 
associated with the (whiting DO) issued on December 15, 1999. During 
the 2000 whiting season, the whiting fisheries exceeded the chinook 
bycatch amount specified in the whiting BO's incidental take 
statement's incidental take estimates, 11,000 fish, by approximately 
500 fish. In the 2001 whiting season, however, the whiting fishery's 
chinook bycatch was well below the 11,000 fish incidental take 
estimates. The re-initiation will focus primarily on additional actions 
that the whiting fisheries would take to reduce chinook interception, 
such as time/area management. NMFS is gathering data from the 2001 
whiting fisheries and expects that the re-initiated whiting DO will be 
completed by April 2002. During the reinitiation, fishing under the FMP 
is within the scope of the December 15, 1999, whiting BO, so long as 
the annual incidental take of chinook stays under the 11,000 fish 
bycatch limit.
    Marine Mammal Protection Act: I have determined that fishing 
activities conducted under this rule will have no adverse impact on 
marine mammals.
    Administrative Procedure Act: For the reasons described below, 
there is good cause to waive the proposed rule requirement under 553 
(b)(B). The Pacific Coast Groundfish FMP requires that fishery 
specifications be evaluated each year using the best scientific 
information available. A stock assessment for whiting was prepared in 
early 2002, using the most recent survey data. Because of the timing of 
the resource survey upon which the assessment is based, it was not 
available for use in a stock assessment that could be ready for the 
September-November management cycle when the rest of the groundfish 
specifications were set. In addition, the survey for this species is 
done only every three years. Therefore, the Council and NMFS decided it 
was best to delay the adoption of the 2002 ABY and OY in order to use 
the newest data, rather than use 4 year old data from the prior survey. 
The preliminary indication from survey data was that the biomass had 
declined in recent years and the ABC and OY recommended for 2002 would 
be substantially lower than 2001. Therefore, for resource conservation 
purposes, it was particularly important to delay in order to use the 
most recent data. Finally, since the major fishery for whiting does not 
start until April 1, there was time to delay the adoption of the new 
ABC and OY, until the new information was available in March.
    Last year's whiting specifications were carried over in the interim 
for 2002 and were announced in a final rule published on March 7, 2002 
(67 FR 10490). In the final rule, it was explained that the 
specification would be adjusted following the Council's March meeting 
and announced in the Federal Register as an emergency rule. This action 
has been publicized widely through the Council process. Because the ABC 
and OY are substantially lower than those adopted for 2001, this 
emergency rule is necessary to restrict fishing so the fishery stays 
within its overall harvest allocation while allowing the various 
sectors of the fishery the opportunity to fully harvest their sectors 
allocations. To delay the rule beyond the start of the fishery could 
result in some sector allocations being exceeded and possible early 
closures for other sectors as a result of excessive harvest in the 
early season.
    The reasons described above, pursuant to 5 U.S.C. 553(d)(3), 
constitute good cause to waive the 30-day delay in effectiveness, so 
that this rule may become effective before the fishery begins on April 
1, 2002.
    Executive Order 12866 (E.O. 12866): Pursuant to the procedures 
established to implement section 6 of E.O. 12866, the Office of 
Management and Budget has determined that this emergency rule is not 
significant.
    Executive Order 13132 (E.O. 13132): This action does not contain 
policies with federalism implications under E.O. 13132.
    Essential Fish Habitat (EFH): This action will affect fishing in 
areas designated as EFH by Amendment 11 to the FMP. This action reduces 
the whiting OY for 2002 from the 2001 level which is currently in place 
for the fishery. The potential effects of these changes are not 
currently quantifiable, but the changes are expected to have either no 
adverse effect on EFH, or to have a positive effect resulting from 
reduced fishing.
                                 ______
                                 
 Memorandum for William T. Hogarth, Ph.D., Assistant Administrator for 
Fisheries, from D. Robert Lohn, Regional Administrator, National Marine 
                    Fisheries Service--April 1, 2002

Finding of No Significant Impact on the Environmental Assessment of the 
        Pacific Whiting Allowable Biological Catch and Optimum Yield 
        for the 2002 Pacific Coast Groundfish Fishery
    To manage and conserve the whiting resource in the exclusive 
economic zone off Washington, Oregon and California, NMFS is 
implementing the Pacific whiting (whiting) allowable biological catch 
(ABC) and optimum yield (OY) for 2002 by emergency rule. The attached 
environmental assessment (EA) analyzed a range of alternatives for 
setting the whiting specifications. The alternatives considered in the 
EA included the 2001 specifications based on a 1998 assessment and a 
range of ABCs and OYs based on a new assessment that was completed in 
February 2002. The alternatives based on the new assessment considered 
a range of recruitment assumptions and exploitation levels
    On March 13, 2002 the Pacific Fishery Management Council (Council) 
made a recommendation intermediate to Alternatives 4 and 5 in the EA. 
The Council's recommendation was for a U.S.-Canada coastwide whiting OY 
of 190,500 mt with a U.S. whiting OY of 152,400 nit (80 percent of the 
U.S.-Canada coastwide OY). The Council recommended ABC was to be based 
on a F40% harvest rate with a medium-high recruitment scenario.
    NMFS is disapproving the Council's recommendation to adopt an ABC 
and OY based on F40% with a medium-high recruitment scenario. NMFS will 
instead implement Alternative 4, which is an ABC based on F40% with a 
medium recruitment scenario and an OY that is adjusted by the 40/10 
harvest policy as a precautionary measure (U.S. OY of 129,600 mt). I 
believe that the risk neutral medium recruitment scenario, instead of 
one that accepts greater risk, is supported by the best available 
science given the current biomass estimate and the uncertainty 
associated with the estimates of recent year class strength. An 
analysis of the expected impact on the human environment from the U.S. 
ABC and OY recommended by the Council was prepared and is included in 
Appendix A to the EA.

Finding of no Significant Impact
    Based on the EA, review of the National Environmental Policy Act 
(NEPA) criteria for significant effects, and my knowledge of the 
expected impacts, I have determined that this action would not have a 
significant effect upon the quality of the human environment. 
Therefore, preparation of an EIS on the final action is not required 
under Section 102(2)(c) of the NEPA or its implementing regulations. 
This determination is based on the following factors:

        1. As discussed in section 4.2 of the EA, the preferred 
        alternative is not expected to jeopardize the sustainability of 
        any target species that may be affected by the action. The 
        whiting ABC will be based on a risk neutral medium recruitment 
        scenario instead of one that accepts greater risk. Added 
        precautionary measures built into the OY are expected to 
        further reduce the risk of overfishing and allow the whiting 
        biomass to increase. Incidental catch of species other than 
        whiting are minor (generally less than 3 percent of the total 
        catch by weight). The total take of other groundfish species 
        are expected to be within the 2002 OYs specified. for those 
        species. As discussed in sections 4.2 and 5.7 of the EA, 
        incidental take of salmonids are expected to stay within the 
        threshold in the biological opinions for the whiting fishery.

        2. As discussed in section 5.1 of the BA, the preferred 
        alternative will affect fishing in areas designated as 
        essential fish habitat by Amendment 11 to the FMP. This action 
        reduces the whiting OY for 2002 from the 2001 level which is 
        currently in place for the fishery. The potential effects of 
        these changes are not currently quantifiable, but the changes 
        are expected to have either no adverse effect on EFH, or to 
        have a positive effect resulting from reduced fishing.

        3. As discussed in section 4.3 of the EA, the preferred 
        alternative is not expected to have a substantial effect public 
        health or safety.

        4. As discussed in section 5.7 of the EA, the preferred 
        alternative will not adversely affect endangered or threatened 
        species or critical habitat.

        5. As stated in section 4.4 of the BA, the preferred 
        alternative is not expected to result in cumulative adverse 
        effects that could have a substantial effect on target and non-
        target species.

        6. As discussed in section 4.2 of the EA, the preferred 
        alternative is not expected to jeopardize the sustainability of 
        any non-target species. The bycatch of non-target species in 
        the whiting fishery is expected to be minimal.

        7. As discussed in section 4.2 of the EA, the preferred 
        alternative is not expected to have a substantial impact on 
        biodiversity and ecosystem function.

        8. As discussed in Section 4.3 of this BA, the preferred 
        alternative is expected to result in significant social or 
        economic impacts. However, the proposed action is not expected 
        to result in significant physical or biological impacts. 
        Therefore, there are no significant social or economic impacts 
        interrelated with significant natural or physical environmental 
        impacts.

        9. The preferred alternative has controversial aspects since it 
        rejects the Council's recommended alternative for U.S. harvest 
        of whiting of 152,400 mt and instead implements a lower harvest 
        level of 129,600 mt. Industry participants have expressed 
        concern about the economic impacts of the reductions in 
        harvest. In addition, the March 5, 2002, Ninth Circuit Court of 
        Appeals opinion in Midwater Trawlers Cooperative v. Department 
        of Commerce, which is a challenge to Indian treaty fishing 
        rights by the fishing industry, could result in complaints 
        about the allocation of whiting between the tribal and non-
        tribal sectors of the fishery. The environmental community is 
        likely to be concerned about the low biomass levels and how 
        quickly the stock will be restored to a sustainable level.

    In view of the analysis presented in this document, the proposed 
whiting specifications are not expected to significantly affect the 
quality of the human environment, with specific reference to the 
criteria contained in Section 6.02 of NOAA Administrative Order NAO 
216-6, Environmental Review Procedures for Implementing the National 
Environmental Policy Act (NEPA).. Accordingly, the preparation of a 
Supplemental Environmental Impact Statement for the proposed action is 
not necessary.
                                 ______
                                 
* Response to the remaining written questions to Vice Admiral Conrad C. 
        Lautenbacher, Jr. was not available at the time this hearing 
        went to press.*
       Written Questions Submitted by Hon. Ernest F. Hollings to
                Vice Admiral Conrad C. Lautenbacher, Jr.

Vulnerability of Protected Resources
    The total Administration FY 2003 budget request included $157.2 
million for Protected Resources Research and Management Services. 
However, almost half of this is spent on Pacific and Atlantic salmon. 
Research and management for all other species, including endangered 
species such as Steller Sea Lions, Right Whales, some sea turtles, as 
well as other marine mammals such as whales, porpoises and pinnipeds 
must share the remainder. Most of these other species require 
substantial additional research or assessment information to meet 
future management and compliance needs according to a recent internal 
management review.

    Question 1. Why is so little being spent on protected resources 
other than salmon?

    Question 2. Should funding be given to the Marine Mammal Commission 
to conduct the research and assessments that are so critically needed 
for future management, and compliance with the MMPA?

    Question 3. What would be needed to get sufficient marine mammal 
and sea turtle population information to meet our conservation and 
management needs?

    Question 4. What are the risks of not having such information?
National Polar-Orbiting Operational Environmental Satellites (NPOESS) 
        and DoD
    In May 1994 the Department submitted a proposal to converge the 
Department of Defense (DoD) and Department of Commerce (DOC) polar 
orbiting environmental satellite systems, to be administered by NOAA 
Integrated Program Office (IPO). The reason for the combination was to 
control costs and ensure on-time deployment--but the approach is still 
experimental.

    Question 5. Can you identify any cost savings from this approach? 
What are they?

    Question 6. The last we heard, the launch of the first NPOESS 
satellite will be in December 2008. Are you still on track for that 
launch date?

    Question 7. What are your contingency plans if there is a launch 
failure?

    Question 8. I understand that a primary satellite command and 
control facility has yet to be identified, but that DOD is urging 
selection of a site outside the U.S. In such a time of national 
security, don't you think such a decision would be unwise?

    Question 9. Can the existing U.S.-based facilities provide the same 
or equivalent coverage?

    Question 10. We specifically chose NOAA as administrator of this 
program. What role is DOD playing in the decisionmaking and 
administration?
Shrimper Issues
    The U.S. has some of the strictest marine protection laws in the 
world. It is important that NOAA and the Department of State continue 
to pursue international agreements in order to level the playing field.
    With respect to regulation of shrimpers, Congress in 1990 enacted 
Section 609 of P.L. 101-162, which restricts the import of shrimp 
harvested in a way that harms sea turtles. Under this law, nations must 
be certified as having a regulatory program to protect sea turtles in 
their shrimp trawl fisheries that is comparable to the U.S. program in 
order to obtain access to U.S. shrimp markets. Evidence observed during 
an inspection by the National Marine Fisheries Service (NMFS) at the 
port of Mazatlan, Mexico, November 13-16, 2001 revealed serious 
compliance and enforcement issues with respect to the use of Turtle 
Excluder Devices (TEDs).

    Question 11. Such TED violations in Mexico come at a time when NMFS 
is considering a rule that would impose more stringent regulations on 
U.S. shrimpers. Is it justifiable to hold U.S. shrimpers to strict 
standards while taking a flexible approach to compliance in Mexico?

    The antibiotic, Chloramphenicol, has recently been detected in 
shrimp products exported by Thailand, Vietnam and China and from 
Southeast Asia to the European Union and Canada, resulting in steps to 
severely restrict imports to the EU and Canada from these countries. 
Despite these countries being the first, second and fifth largest 
exporters of shrimp to the U.S. respectively, the U.S. has taken no 
such steps.

    Question 12. I understand the U.S. Food and Drug Administration 
does not have testing protocols sufficient to detect the levels of 
Chloramphenicol found in EU and Canadian imports, yet the U.S. 
prohibits this antibiotic in imports. Have you discussed options to 
address this shortfall with the USFDA?

    Question 13. Have you offered the expert services of your agency to 
fill testing gaps for imports?

    Question 14. What steps have you taken to level the playing field 
for U.S. shrimpers, who's products do not threaten the safety of 
citizens?
NOAA Fleet Recapitalization
    The 1992 NOAA authorization bill called for a 15-year program to 
replace and modernize the NOAA fleet. Approximately $200 million has 
been spent thus far for new ships, converting surplus navy ships, 
reactivating and modernizing inactive NOAA ships, and modernizing data 
collection systems. Another $30 million has been spent for repair 
projects to keep NOAA ships reliable. You have previously indicated 
sharp support for recapitalizing the fleet.

    Question 15. In view of the growing needs of NOAA's ocean 
exploration mission, have you considered the advantages of a dedicated 
vessel to meet this mission?

    Question 16. What is NOAA's plan for modernization and replacement 
of the NOAA fleet?

    Of the FY 2003 planned ship operating days, NOAA ships are 
scheduled for 3776 days of operation, while 4449 days of agency need 
will be outsourced to other vessels. In FY 2002 NOAA will spend $59.5 
million operating its fleet and $48.6 million outsourcing for ships or 
ship collected data.

    Question 17. Now that recapitalization of the fleet is underway and 
more information in hand on cost of outsourcing, can you identify the 
relative costs and benefits of using NOAA assets as opposed to 
contractor or outsourced vessels for certain of NOAA missions?
Spending for Pacific Salmon
    Total spending for Pacific Salmon restoration and other activities 
is provided through the National Marine Fisheries Service, land 
management agencies like Fish and Wildlife Service, and water 
management agencies like the Bonneville Power Administration and Army 
Corps of Engineers (FY 2002 enacted $445.5 million--FY 2003 proposed 
$448.6 million). NOAAs pacific salmon funding (FY 2002 enacted $231.3 
million--FY 2003 proposal $195.9 million) comes through the Pacific 
Coastal Salmon Recovery Fund, funds established under the Pacific 
Salmon Treaty, and through a number of base funding accounts. To date 
there has been very little accounting of how much of these funds have 
been spent on research into stock assessments, habitat restoration, or 
other mandates under ESA; or what progress has been made with these 
expenditures.

    Question 18. Can you provide to me an accounting of NOAAs pacific 
salmon expenditures? How much of these funds have been spent on ESA 
related issues in each affected state?

    Question 19. Does the allocation of monies to states under the 
Pacific Salmon Recovery Fund match the restoration needs of those 
states under ESA?

    Question 20. What progress has been made in recovering salmon 
stocks with these funds? How is performance measured in relation to the 
expenditures to date?

    Question 21. I understand that a large portion of funding 
appropriated under the NW Forest Plan in the mid 1990s was spent on 
Salmon related research and habitat restoration in Northwestern states. 
How much was spent in total, in what states, and on what issues? What 
have been the results of those expenditures on salmon restoration?

    Question 22. Does the agency evaluate hydropower impacts in 
determining the potential in recovery of salmon stocks? Has sufficient 
progress been made on reducing hydropower impacts to allow restoration 
funds to have an effect?
                                 ______
                                 
         Written Questions Submitted by Hon. John F. Kerry to 
                Vice Admiral Conrad C. Lautenbacher, Jr.

Sea Grant
    Established in 1966, the National Sea Grant College Program is the 
marine version of the research and extension activities at the 
country's land grant universities. In 1970, the program was transferred 
from the National Science Foundation to NOAA when that agency was 
created and placed in the Department of Commerce, where it has since 
flourished. Sea Grant's legislative charge is to ``increase the 
understanding, assessment, development, utilization, and conservation 
of the nation's ocean and coastal and Great Lakes resources by 
providing assistance to promote a strong education base, responsive 
research and training activities, and broad and prompt dissemination of 
knowledge and techniques, and multi disciplinary approaches to 
environmental problems.''
    The President's FY 2003 budget proposes the program be transferred 
to NSF ``to promote more rigorous, merit-based competition among 
researchers.'' However, Sea Grant is not merely a science grant 
program--it performs a range of services, including outreach and 
technical advice to coastal communities.

    Question 1. Why did the Administration propose such a transfer when 
Congress has repeatedly, and unanimously, authorized its operation 
within NOAA?

    Question 2. To the best of my understanding NSF does not have the 
authority to perform all the functions of Sea Grant, such as the 
outreach and extension services? What current Sea Grant activities 
would this proposal deny to our coastal communities?

    Question 3. In today's hearing you stated that ``NOAA would work 
with the National Science Foundation to ensure that the essential 
pieces of the program would continue as much as possible'' How would 
NOAA assistance be possible considering outreach and extension services 
makeup one third of the program and NOAA will no longer be authorized 
any appropriations to carry-out these services?

Reducing Capacity
    The need for capacity reduction has grown over the last 5 years 
just as discretionary funding is shrinking--particularly after 9/11. 
The NMFS 2001 Preliminary report, ``Identifying Harvest Capacity and 
Over-Capacity in Federally Managed Fisheries'' states that ``over-
capacity exists in more than half (55 percent) of all federally managed 
fisheries.'' While this is a striking statistic, it confirms what 
countless experts and managers have been telling us since the late 
1980s. In 1996 we thought we had addressed the problem by creating a 
capacity reduction program under section 312(b) of the Magnuson Act. 
However, we cannot identify a single capacity reduction program that 
has been implemented pursuant to the process we created. Even now, each 
fishery's request requires a trip to Capitol Hill and faces an 
extremely uncertain future.

    Question 4. Why has the 312(b) process failed--even when fishermen 
are willing to bear the burden of paying back federal loans?

    Question 5. How could we streamline the process?

    Question 6. How would you propose to fund capacity reduction 
programs?

Right Whales
    With respect to rules aimed at protecting right whales, the 
Seasonal Area Management (``SAM'') and the Dynamic Area Management 
(``DAM'') rules recently issued by NFS both have serious shortcomings. 
The SAM rules allow floating line to be used between traps. The DAM 
rule places major burdens on fishermen to remove gear within only 48 
hours, and by the time the rule is triggered, the whales may already be 
out of the area, or worse, already entangled in gear that was in the 
area prior to the rule taking effect.

    Question 7. How long will it take for NFS to put into place a gear 
modification rule for protecting right whales that would allow one or 
more types of approved gear to remain in the water? What are the 
chances that NFS could work on an even more expedited basis to 
developed an interim rule allowing modified gear to be used in the 
areas where the ``Dynamic Area Management'' program is triggered?

Litigation Burden and Crisis Management
    Concern has grown over the number of lawsuits being brought against 
NOAA fisheries because of the increased workload and resource drain, 
impact on management decisions, and the shortfalls highlighted by the 
litigation. Initially, when the first lawsuits were filed, it appeared 
that NMFS was failing to win cases because of failure to meet 
procedural requirements (e.g., NEPA), and understand that efforts are 
focused on creating uniform processes to rectify this. However, recent 
analysis suggests substantive management decisions may be responsible 
for such losses.

    Question 8. Has there been a determination of why NMFS has lost 
recent cases, on procedural requirements or substantive management 
grounds?

    Question 9. What steps have been taken to address cases brought on 
procedural grounds?

    Question 10. What steps have to taken to identify needed changes to 
address substantive challenges?

    Question 11. How will you, as a senior management official, ensure 
that the agency is prepared to meet legal mandates and respond to 
litigation requests while carrying on the routine management activities 
of the agency?

    Question 12. What is the role of the Department of Justice in 
decision making, and how would you suggest improving its understanding 
of the legal and technical issues involved in fishery management 
decision making?

EPA/NOAA Coastal Health Report and Status of Monitoring
    The recent EPA/NOAA National Coastal Condition Report represents 
the existing knowledge on the condition of the nation's coastal waters, 
and further identifies some important and significant regional 
differences. No overall assessments were completed for Alaska, Hawaii, 
or the island territories.

    Question 13. How can we as a nation possibly know where we're going 
or take the necessary steps to accomplish our goals, when we don't even 
know the current condition of a significant (and economically 
important) portion of our coastal environment?

    Question 14. What is being done to fill in these gaps in the 
existing data sets and to establish some baseline conditions for these 
areas?

    Question 15. How is NOAA, the nation's civilian ocean agency, 
taking the lead and ensuring we get routine and timely coastal trends 
information?

    Question 16. What plans are in place for the agency to establish 
the kind of monitoring program necessary to collect and analyze data in 
subsequent years, establish trends, and to feed those results back into 
management decisions?

    Question 17. How do you see coastal monitoring for trends and 
management decision fitting within the ocean and coastal observing 
system now being proposed? How does NOAA plan to ensure coordination in 
regional systems?

    The report's assessment shows the nation's estuaries to be in fair 
to poor conditions, with a regional trend of poor condition in the 
Northeast to fair condition in the Southeast. I am deeply concerned 
that the Northeast scored so poorly both ecologically, with 23 percent 
of the sediments having degraded biology and 30 percent of the 
estuarine areas having impaired human uses. I'm certain that these 
conditions are not assisting with the recovery of the many fish stocks 
essential to the economy of this region.

    Question 18. With this data in hand, how is the agency adapting its 
current programmatic activities in the region to address the identified 
conditions?

Fisheries Modernization
    The Administration's budget request includes an increase of $90.9 
million for its Modernization of NOAA Fisheries Initiative, 
representing $74.8 million for science, $6.4 million for management, 
and $9.7 million for enforcement. However, a number of important 
elements to modernization have not been addressed that could positively 
impact monitoring, reporting, management and safety.

    Question 19. Is the FY 2003 budget request of $5.4 million for 
support and continued modernization and expansion of the vessel 
monitoring system (VMS) program sufficient to meet our needs, 
particularly after September 11th?

    Question 20. Why has the Administration not requested additional 
funding for vital modernization of the fleet such as electronic 
logbooks, VMS, increases in observer coverage, and bycatch reduction 
technologies?

    Question 21. How much will it cost to really modernize fisheries 
management?
                                 ______
                                 
        Written Questions Submitted by Hon. Daniel K. Inouye to 
                Vice Admiral Conrad C. Lautenbacher, Jr.

    Question 1. I am greatly concerned by the solicitation for mapping 
services that was issued by the National Ocean Service (NOS) to map and 
survey the benthic habitats of the Northwestern Hawaiian Islands 
(NWHI). Currently, there are only extremely limited data available on 
the NWHI for use by resource managers and policy makers during the NWHI 
sanctuary designation process. In these times of budgetary crisis, it 
is therefore essential that the mapping and surveying products arising 
from the solicitation be carefully tailored to meet the needs of the 
resource managers. How may we best work together to ensure that the 
best product is obtained?

    Question 2. The nation has recently reached a much greater 
awareness of the unique and irreplaceable treasure that our coral reefs 
represent. Because 95 percent of the nation's coral reefs are located 
in the main Hawaiian Islands and the NWHI, Hawaii bears an awesome 
responsibility of stewardship of these precious resources. Fortunately, 
Hawaii is also a center of excellence for marine study, conservation, 
and management, where scientific expertise is complemented with a 
culture of respect and reverence for nature rooted in the beliefs and 
cultural practices of the Native Hawaiians. In light of the 
concentration of physical and human coral reef resources in Hawaii, 
what steps will the National Oceanic and Atmospheric Administration 
(NOAA) take to ensure that the limited funds available will be used for 
projects that meet the immediate needs of resource managers, including 
vesting more decision making authority to managers of NOAA managers in 
the field?

    Question 3. Magistrate Judge Facciola of the United States District 
Court for the District of Columbia in Hawaii Longline Association v. 
The National Marine Fisheries Service, No. 01-765, issued a report and 
recommendations that the National Marine Fisheries Service (NMFS) is 
required to allow the Hawaii Longline Association to be allowed to 
participate in the generation of a Biological Opinion. How will the 
NMFS proceed with its new Hawaii longline biological opinion in light 
of this development?

    Question 4. The NMFS has long been organized into administrative 
``regions.'' The coastal and marine areas of the United States face 
unique issues based on geography and culture, and the NMFS regions 
emerged as the most effective way to handle this diversity. By vesting 
decision-making authority in localities, the NMFS ensures that it can 
be responsive to the special needs of those localities. What are your 
thoughts on developing a similar structure for the NOS?
                                 ______
                                 
          Written Questions Submitted by Hon. Max Cleland to 
                Vice Admiral Conrad C. Lautenbacher, Jr.

    Question 1. I have been informed by Georgia officials that the 
trawl fisheries have been closely monitored for stray turtle catches, 
and I support this monitoring. However, also off the coast of Georgia, 
I have heard from officials that shark drift gillnet fisheries in 
Georgia waters, at the height of the season this year, operated 
unmonitored. Why have steps not been taken to protect sea turtles from 
shark drift gillnet fishery at a time when Georgia has recorded high 
sea turtle mortality rates? Is there a reason that the prohibition was 
not evenly applied to both the trawl fisheries as well as the shark 
drift gillnet fisheries?

    Question 2. What measures are you taking to ensure that 
prohibitions are applied across the board?

    Question 3. Do you have records of any of the shark drift gillnet 
fisheries been documented to take sea turtles in recent months?
                                 ______
                                 
          Written Questions Submitted by Hon. John McCain to 
                Vice Admiral Conrad C. Lautenbacher, Jr.

    Question 1. It was reported in the April 12 edition of Science 
Magazine that you and Dr. Marburger of the White House Office of 
Science and Technology Policy outlined a plan to shift the U.S. Global 
Climate Change Research Program from a scientific steering group to the 
Department of Commerce. Many researchers fear that this would undermine 
the quality of research in the $1.7 billion program. This report is 
consistent with discussions the Committee had last year on the 
possibility of having a political appointee head the program. Can you 
identify the merits of having the program housed within the Department 
of Commerce and headed by a political appointee?

    Question 1a. Why would the Department of Commerce be a better 
choice than NASA, which has over the half the funding for the program?

    Question 2. You have mentioned that the President's Global Climate 
Change Initiative seeks to reduce greenhouse gas intensity by 18 
percent over the next decade. Can you explain the greenhouse gas 
intensity and its importance?

    Question 2a. Last year, the President stated that his climate 
change policy would be based upon sound science. What is the scientific 
basis for the 18 percent reduction?

    Question 2b. Will the greenhouse gas intensity eventually make 
actual reductions in the amount of greenhouse gases in the atmosphere?

    Question 3. The Global Climate Change Initiative is a multi-agency 
effort between the Departments of Commerce, Energy, and Agriculture, 
NASA, and the National Science Foundation. Who will have lead agency 
responsibilities?
    Question 3a. Will the lead agency's responsibility include 
budgetary control over the other agencies participation?

    Question 3b. How will this effort complement the existing efforts 
of the multi-agency U.S. Global Climate Change Research Program?

    Question 4. NOAA has requested $5 million each for the Global 
Climate Atmospheric Observing System and the Global Ocean Observing 
System. The recent Senate-passed Energy Reform Act calls for a plan for 
the establishment of a National Climate Service for climate monitoring 
and prediction. Will these two programs be considered part of a 
National Climate Service?

    Question 5. In its fiscal year 2003 budget request, the 
Administration proposed to move the Sea Grant Program from NOAA to the 
National Science Foundation (NSF). The Sea Grant Program was 
specifically placed in the Department of Commerce by an act of Congress 
after the creation of NOAA in 1970 to pair the applied research 
conducted by Sea Grant with regional resource and management needs. 
This program has been very successful in bridging the gaps between 
research, education, and applied management issues at the local level 
and there does not appear to be any compelling reason to move it. There 
is wide support throughout Congress for maintaining the existing 
structure of the Sea Grant Program within the Department of Commerce. 
Can you elaborate on the rationale for moving this program to NSF?

    Question 6. According to the President's FY 2003 budget, ``NOAA has 
over two-thirds of the Department's congressionally directed earmarks--
74 projects costing over $160 million.'' How does Congressional 
earmarking affect NOAA's ability to fund its strategic goals and 
priorities?

    Question 7. In your statement, you mentioned that without 
significant amounts of overtime and creative manual resource tracking, 
NOAA's accounting details would be non-existent. For fiscal years 1999, 
2000, and 2001, NOAA received an unqualified (or clean) opinion from an 
audit of its financial statements. Can you elaborate on NOAA's 
achievement despite the problems many other federal agencies are 
experiencing?

    Question 8. The Department of Commerce spend about 25 percent of 
its annual budget for large contracts and other procurement vehicles. 
One of the challenges for the Department is to balance the desire to 
streamline the acquisition process with the need to ensure that 
taxpayer dollars are wisely spent and laws and regulations are 
followed. How do you ensure this balance is maintained within NOAA?

    Question 9. According to NOAA's plans, the Polar-orbiting 
Operational Environmental Satellite (POES) will be phased out and 
replaced by the NPOESS starting in 2008. How will this phase-out affect 
NOAA operations in Wallops Island, Virginia, and Fairbanks, Alaska?

    Question 10. Your written statement mentions the importance of the 
scientific and technical workforce to accomplishing your mission. In 
terms of workforce needs, what shortages do you have and how do you 
plan to address them?

    Question 11. We have heard concerns from other parts of the 
Department of Commerce on the physical conditions of the federal 
facilities. Do you foresee any major future budgetary needs for the 
NOAA's facilities?

    Question 12. As part of the Administration's Climate Change 
Research Initiative, NOAA requests $18 million to improve climate 
monitoring and modeling systems. How will this request will improve 
NOAA's ability to determine the effects of global warming on the Earth?

    Question 13. NOAA has requested $1 million to develop new 
technologies for forecasting and detecting tornadoes and other forms of 
severe weather. It is hopeful that these technologies will increase the 
lead time for tornadoes and hazardous weather. Can you discuss the 
impact of additional lead time for the people of La Plata, MD in the 
tornadoes of this past weekend?

    Question 13a. Which technologies will you be pursuing with this 
funding?

    Question 14. The Administration has placed an emphasis on 
outsourcing and privatizing many functions which the U.S. government 
currently performs. How does this emphasis affect the balance between 
the prediction services that should be provided by the National Weather 
Service and the services that should be provided by commercial weather 
services?

    Question 15. NOAA has requested $5 million to establish a climate 
modeling center in Prince, NJ. Assuming this is for the Geophysical 
Fluids Dynamic Laboratory (GFDL), what capabilities would this add to 
the laboratory's existing work on climate modeling?

    Question 16. Can you discuss the importance of space weather 
forecasts to the space industry? Also, are you experiencing an increase 
in demand for NOAA's services in this area?

    Question 17. Can you elaborate on how improved weather forecasting 
leads to reductions in air traffic delays and costs savings for the 
airline industry?

    Question 18. The National Polar-orbiting Operational Environmental 
Satellite System (NPOESS), a multi-agency program, has been making 
significant progress over the years. Are they any lessons-learned from 
the program that may be applicable to other multi-agency development 
programs?

    Question 19. You have mentioned the request of $8.4 million to 
begin upgrading instrumentation aboard NOAA's Gulfstream IV plane. This 
technology will allow for 3 dimensional profiles of hurricanes from 
45,000 feet to the surface in real-time. When can we expect to have 
such capability and what is the impact of this technology on Nation's 
response to these weather events?

    Question 20. On NOAA's Energy Permit Rapid Response program, NOAA 
has requested $2 million to support the establishment and 
implementation of a streamlined energy permit process. Can you 
elaborate on NOAA's role in this initiative?

    Question 21. Can you discuss any vulnerabilities to the operation 
of the NOAA facilities due to a lack of redundancy?

    Question 22. NOAA has requested $7.2 million to implement an 
operational backup system for the National Weather Service's weather 
and climate supercomputer. The current computer is a single point of 
failure for the entire system. Are there other single point of failures 
in the weather prediction system that needs to be addressed?

    Question 23. The National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) combines programs at the Department of 
Commerce, Department of Defense, and NASA. How was this program managed 
to address the different operating styles of these three agencies in 
order to prevent the traditional ``stovepiping'' problem?

    Question 24. NOAA has decided to delay the launch date for the next 
generation Geostationary Operational Environmental Satellite (GOES-R) 
from 2010 to 2012, citing the successful operation of the existing GOES 
satellites. What factors did NOAA examine before making this decision?

    Question 24a. Will NOAA use this two-year delay to review 
alternative system architectures for GOES-R?

    Question 25. NOAA has requested $2.0 million in support of the 
Study of Environmental Arctic Change (SEARCH) program to improve 
monitoring of the Arctic environment. Currently, what are the effects 
of global warming upon the Arctic region?

    Question 26. Do you have plans for research concerning abrupt 
climate change?
                                 ______
                                 
        Written Questions Submitted by Hon. Olympia J. Snowe to 
                Vice Admiral Conrad C. Lautenbacher, Jr.

    Question 1. The Administration's request criticizes the large 
number of Congressional earmarks for NOAA. NOAA has over two-thirds of 
the Department's earmarks--74 projects costing over $160 million. The 
budget request cuts many of these unrequested projects and redirects 
funds to core programs. How do earmarks affect NOAA's ability to do its 
job? NOAA may have more earmarks than other agencies, but they still 
amount to only 0.04 percent of NOAA's overall budget. NOAA has cut many 
earmarked programs from its FY 2003 request. If these earmarked 
programs are not otherwise funded, does this mean that NOAA's 
priorities do not line up with Congress' priorities? How does NOAA 
determine which earmarked programs to cut?

    Question 2. You only recently assumed your position as the Deputy 
Under Secretary of Commerce and Administrator of NOAA. With your 
extensive managerial experience, I imagine you are taking a hard look 
at NOAA and its organization. We are aware that NOAA is conducting a 
comprehensive program review, addressing what the agency is doing and 
how they are doing it. This review is scheduled to be finished May 
1st--the day of this hearing. What is the scope of topics and issues in 
this review? Is NOAA's current organization the best way to meet its 
mission and mandates? What can NOAA do better? What can we do to help 
NOAA do better? Are their programmatic obstacles that need to be 
removed? If the report is not available today, when can we expect the 
final report to be released?

    Question 3. The current Harmful Algal Blooms Task Force's action 
plan to eliminate the Gulf of Mexico dead zone outlined a program that 
would cost approximately $1 billion a year. It largely focuses on 
regional agricultural activities to limit nutrient runoff. To what 
extent has NOAA incorporated the Task Force's recommendations on the 
dead zone into its programs and activities? Does action in this area 
simply require more funding, or does NOAA need to make other 
institutional changes to implement these recommendations? If only a 
portion of this dead zone funding were provided, would NOAA implement 
any aspects of the action plan? How would it determine priority areas 
and issues for action? When it comes to implementing action plans like 
this, what do you think is the most effective way to integrate regional 
and local stakeholders?

    Question 4. As you know, programs throughout NOAA need basic 
oceanic data to improve management models. NOAA's FY 2003 budget 
request includes $4 million to initiate a global ocean observing 
system. While efforts have already begun in some regions, including 
through the Gulf of Maine Ocean Observation System, this is the start 
of the National Ocean Observation System--a coordinated national 
effort. The FY 2002 Senate CJS Appropriations bill included report 
language that requires the Administration to submit an ocean 
observatories plan with the FY 2003 budget request. What is the status 
of this plan? What are the main findings and recommendations of this 
plan? How will the National Ocean Observing System be administered--
would it be a part of the inter-agency National Ocean Partnership 
Program? If so, would this program continue to be chaired by the Navy? 
If it will remain under the Navy's jurisdiction, how can we ensure that 
it takes care of NOAA's program goals and needs? As we develop 
legislation in support of the National Ocean Observation System, what 
can you tell us about funding needs for implementation and maintenance 
of the system? Once implemented, what will the long-term cost/benefit 
ratio be? What other supportive elements would you like to see in 
legislation?

    Question 5. The Saltonstall-Kennedy Act provides a valuable source 
of funding for U.S. fisheries research and development, but only a 
small fraction of this amount seems to have actually gone for this 
purpose. For example, S-K funds are estimated to be $79.1 million for 
FY 2003, yet NOAA estimates that only $4.1 million of this amount (5.2 
percent of the total) will be used for fisheries research. The budget 
proposal explains that the remaining $75 million will be used to offset 
their Operations, Research, and Facilities account. This follows a 
similar trend over at least the last ten years. The budget request 
states that, in FY 2003, a portion of S-K grants will go toward 
Atlantic salmon conservation and recovery. How much will this amount 
to? Is this part of the $4.1 million allocated for research, or is it 
part of a separate allocation of S-K funds? How does NOAA make the 
decision about what fraction of all S-K funds will go toward research? 
In other words, who makes research funding cut-off decisions? What do 
they base their decisions on? Once the non-research component of the S-
K funds is transferred to the ORF account, does NOAA track what it is 
spent on? If so, what does it fund? For FY 2003, NOAA requests $2.359 
billion for their ORF account, and $75 million of this is proposed to 
come from the S-K fund. In other words, only 0.03 percent of all ORF 
funds are from S-K funds. How else can NOAA work around this 
allocation, so that more S-K funds can be freed to be used for their 
intended purposes? Other mandated uses of S-K funds include things like 
fishing gear modification, fishing community development, and permit 
buy-back programs. We clearly have urgent need for these programs, so 
shouldn't these be a top priority when allocating S-K funds? If NOAA 
could increase the portion of S-K funds that support research, what 
could NOAA do to encourage the submission of more high-quality research 
proposals?

    Question 6. In February 2001, I re-introduced the Coastal Zone 
Management reauthorization bill. A hold was put on the bill, due to 
concerns related to the oil and gas industry. Since oil and gas 
interests are tied to the Department of Interior's development of an 
energy policy, NOAA has needed to work with Interior to resolve this 
impasse. Resolution of oil and gas concerns will allow the CZMA 
reauthorization to proceed. What has NOAA done to resolve this impasse? 
Has NOAA been talking to the Dept. of Interior regarding how their 
energy policy relates to oil and gas in the coastal zone? What are 
NOAA's plans for developing proposed language that can settle this 
controversy? What kind of time line is NOAA looking at for this?

    Question 7. I have several concerns about the expanded use of 
marine protected areas. For example, I'm concerned about the imbalanced 
representation on the new MPA Advisory Committee; the overlap with 
protected marine environments established in other laws; and NOAA's 
continued housing of this program in the National Ocean Service, 
considering that many of the protected areas currently in place are 
administered by NMFS. In May last year, I outlined these concerns to 
Secretary Evans, requesting that they review the effects of the 
executive order and that the Advisory Committee fairly represent those 
stakeholders most affected by it. What is the status of this review? 
What conclusions were reached about expanding the use of MPAs? How has 
the proposed membership of the MPA Advisory Council been changed to 
fairly reflect those who will be affected by MPAs--specifically the 
fishermen? When will this council begin work? How much administrative 
overlap will there be between existing protected marine environments 
and any new MPAs? NOAA's FY 2003 budget request includes $3 million for 
MPAs and houses this program in the National Ocean Service. This was 
the same in FY 2002. How well does NOS interface with NMFS, which 
already administers many existing MPAs? How will NOAA improve the 
coordination between these groups? As you know, MPAs can have many 
purposes, and they are often misunderstood by the public. How will poor 
public perception affect NOAA's ability to effectively use MPAs? How is 
NOAA working to improve public understanding of MPAs?

    Question 8. Coral reefs are one of the most biologically productive 
ecosystems in the world, but unfortunately they are suffering from a 
variety of human-induced and natural threats including storms, tourism, 
harvest for the aquaria trade and building materials, destructive 
fishing practices, ship damage, diseases, and water quality degradation 
impact coral reefs. In FY 2002, NOAA received a total of $28.25 million 
for coral reef conservation and the Administration is requesting 
approximately the same amount for FY 2003. Knowing the problems our 
coral reefs are facing, do you think the amount requested for FY 2003 
is sufficient for NOAA to address this issue? What are your plans to 
address non-point source pollution and its effects on our coral reefs?

    Question 9. Recently a report was released that stated that the 
coral reefs in the Northwestern Hawaiian Islands are some of the most 
pristine in the world, while the coral reefs in the Atlantic which 
includes Florida, the Gulf of Mexico, and the Caribbean are some of the 
most in distress. Having said that, your fiscal year 2002 spend plan 
allocates 74 percent of the entire coral reef conservation program to 
the Pacific and only 34 percent to the Atlantic. Shouldn't we be 
spending more of our limited funding in the regions with the greatest 
needs?

    Question 10. To date, NOAA has dedicated very little funding for 
studying the socioeconomics of coral reef damage and rehabilitation--
only 1 percent of the overall budget in FY 2002 and zero percent in FY 
2001. Considering that the causes of coral reef decline are 
significantly driven by human activities, how can NOAA justify spending 
so little on these aspects? How can solutions for coral reefs 
protection be developed if the human dimensions are not given adequate 
study? What are NOAA's plans to integrate socioeconomics and human 
behavior into their overall Coral Reef Conservation Program, both now 
and in the long term?

    Question 11. I understand that Halter Marine is constructing the 
new fisheries research vessel, which will be replacing the ALBATROSS 
IV. I also understand that Halter Marine has filed for bankruptcy 
protection. Will Halter Marine's bankruptcy proceedings adversely 
affect or delay the construction of the new fisheries research vessel? 
If so, how will NOAA proceed with vessel construction plans? If 
delivery of the new fisheries research vessel is delayed, how may this 
affect NOAA's ability to conduct badly-needed fisheries research?

                                  <all>

</pre></body></html>
